<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Kirk, Capito, Lankford, 
Mikulski, Shaheen, Coons, Baldwin, and Murphy.

                      U.S. DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. PENNY PRITZKER, SECRETARY


             opening statement of senator richard c. shelby


    Senator Shelby. The subcommittee will come to order. Today, 
I want to welcome Secretary Pritzker, who will testify about 
the Department of Commerce's 2016 budget request. This 
subcommittee has had a productive relationship with the 
Commerce Department under Secretary Pritzker's tenure, and we 
appreciate very much her being here today.
    The Department of Commerce is responsible for a variety of 
activities critical to our Nation's well-being, including: 
weather forecasting, economic development, fisheries 
management, cybersecurity standards, and trade enforcement, 
among others. Few departments have such potential to directly 
impact the strength and sustainability of our communities and 
local businesses back home.
    The Commerce Department's request for fiscal year 2016 
totals $9.8 billion, which is $1.3 billion, or 16 percent, 
above the 2015 enacted amount of $8.5 billion. This request 
represents a significant increase in spending at a time when 
America is still living within a constrained budget. The 
Department's request proposes increasing funding for several 
important programs that are already expensive, including the 
build up to the 2020 Decennial Census and efforts to launch the 
next generation of weather satellites. These large increases 
are coupled with substantial funding proposals for new 
initiatives, which will continue to add financial pressure on 
existing core programs and operations.
    Such a disjointed request, I believe, ignores current 
fiscal realities and raises immediate questions about the 
administration's priorities for establishing a balanced budget 
within the Commerce Department. Strict oversight and fiscal 
responsibility are essential for the Department's success in 
2016.
    One of the growing pressures on the Department's budget is 
the anticipated budgetary and personnel build up to execute the 
2020 Census. And while the Department is working to the make 
the 2020 Census as efficient and cost-effective as possible, 
any delay in testing and activities now will have very costly 
ramifications in the future. The Department, I believe, simply 
cannot afford to have another $1 billion setback similar to 
that experienced in 2010.
    Madam Secretary, I believe if you're not watchful of plans 
and schedules with the Census today, important programs 
throughout the Department could suffer in order to keep the 
Census on track.
    When it comes to accountability, ensuring the timely 
delivery, launch, and operation of weather satellites remains a 
primary concern for this subcommittee. According to NOAA's own 
budget request, polar orbiting satellites provide the primary 
input, up to 85 percent, of the data needed for NOAA's 
numerical weather prediction models, the underpinnings of high 
impact weather forecasts. Eighty-five percent, I think, is a 
big deal.
    Despite the continued support and full funding provided by 
the subcommittee to NOAA for these satellites, recent reports 
by GAO and the Department of Commerce Inspector General suggest 
that a gap in polar satellite data is likely to occur. GAO 
continues to predict a gap that could last anywhere from 17 to 
53 months, while NOAA and NASA say there is only a potential of 
a 3 month gap. I'm disappointed in the lack of a specific plan 
to address the potential near-term data gap that could occur 
this calendar year.
    Madam Secretary, this mixed message on the potential gap 
deeply troubles me. It's clear that the loss of this data would 
negatively impact the capability of our Nation's weather 
forecasters, potentially putting lives and property in harm's 
way. This gap debate and incongruent information does little to 
dissuade my concerns or that of the American people.
    In addition, I'm concerned about the Department's 2016 
request of $380 million for a proposal to build a follow-on 
polar satellite program after the Joint Polar Satellite System. 
The 2016 request is only an initial down payment for this new 
satellite program and lacks specific details on the overall 
price tag, which could cost several billion dollars. The 
subcommittee will need further information from the Department 
and NOAA on this new satellite system to determine what exactly 
the taxpayers are being asked to invest in beyond 2016.
    Finally, I want to touch on the Department's role in 
economic development. For fiscal year 2015, I expressed concern 
about the rollout of the Investing in Manufacturing Communities 
program. This program gives selected communities a seal of 
approval and priority access to Federal resources, resulting in 
the Department picking winners and losers. This is a concern 
that a lot of us have.
    I'm similarly troubled by a new initiative proposed in the 
2016 request that would establish two new institutes for 
manufacturing and innovation. The question is, do we need them? 
Last year's omnibus spending bill included authorization to 
build out a network of these manufacturing institutes. And 
while I support efforts to drive innovation and spur private 
sector growth, I'm concerned that institutes may benefit only 
certain communities while disadvantaging others. I believe this 
manufacturing initiative will create a fiscal commitment that 
we might be unable to meet.
    The administration proposes $1.9 billion in mandatory 
spending in 2017 to fund these manufacturing institutes, but 
these funds have yet to be authorized. With no mandatory 
funding available or identified, the administration proposes 
spending $150 million of discretionary funding in fiscal 2016. 
This is discretionary funding that the Department simply can't 
afford. I'm concerned that funding new initiatives like this 
will come at a cost to Commerce's core functions. To be 
financially successful, I believe the Commerce Department's 
role in this initiative should be limited in scope, focused on 
its core mission of economic development, and assisting the 
most economically distressed communities, while being mindful 
of taxpayers' dollars.
    I look forward, Madam Secretary, to hearing your views on 
these matters and working with our subcommittee to address the 
concerns in the 2016 bill.
    Now, I want to recognize Senator Mikulski, the former 
Chairwoman of the subcommittee and my friend and colleague, for 
any remarks that she might want to make.


                statement of senator barbara a. mikulski


    Senator Mikulski. Thank you very much, Chairman Shelby, and 
I want to congratulate you on your chairmanship and once again, 
reaffirm our bipartisan working relationship on what's going to 
be good for our country. And we know today that there are some 
new members on our subcommittee from both Wisconsin and 
Oklahoma, and it's wonderful to welcome you to the 
subcommittee.
    Secretary Pritzker, of course, is the Secretary of 
Commerce, which is a hybrid agency that does deal with 
everything from fish, which is so crucial to our mutual 
economies--especially Senator Collins and myself and I know 
Alabama--to technology, to the prediction of weather, which we 
can see we're highly dependent upon.
    But her mantra and her mission has been the phrase that 
America is open for business. And we look forward to hearing 
from her how she feels the budget request from the President 
will enable the Department of Commerce not only make wise use 
of taxpayers' dollars, but how this will promote our economy 
and promote job growth, both today and tomorrow. So we look 
forward to hearing how this ``Open for Business'' has actually 
worked in the real world and how it will do this. We're not 
here to fund Government programs. We're here to fund American 
outcomes. And those American outcomes are to create American 
jobs, promoting economic growth, particularly in manufacturing, 
which so many of our communities have been hard hit, an 
increase in exports, and also to make sure that as we do R&D, 
that this is leading, really to markets.
    I am thrilled, particularly in my own home State, where we 
have so many Nobel Prize winners. But I want us to not only win 
the Nobel Prizes, but I want us to win the markets. So we're 
going to look forward to what does the money mean. And of 
course, protecting America's jobs, and not only new trade laws, 
but enforcing the existing ones, and safeguarding our 
intellectual property. We here in America are inventors. We are 
discoverers. But I believe that when you invent something, you 
should own it, and it should not be stolen from you, and we 
need that.
    The other is to be able to protect our people, and whether 
that's accurate weather forecast--because again, Senator 
Collins and I have talked about how we've had firefighters 
rescuing people and nurses with snowmobiles. We have people out 
there now on our waterways in cold and frozen waters, either 
worrying about where our fishermen are or promoting commerce. 
We need accurate weather, whether you're Oklahoma or Wisconsin 
worrying about a tornado or--we need this. So it is the weather 
forecasting.
    We're particularly interested in the Commerce Department's 
role in cyber. When we think of the word cyber, we immediately 
think of the defense of our Nation. We think of the Department 
of Defense, the Cyber Command, the National Security Agency. We 
certainly are thinking about the responsibilities of the 
Homeland Security that could be facing a shutdown. But what is 
the role of cyber at a Commerce Department? And quite frankly, 
you've been hacked yourself, so we want to know that.
    The other is that we appreciate your work in reform. Going 
back to really Secretary Gutierrez, he and I worked as 
reformers together on things like, especially, the Census, 
which was of great concern. We worked together on the techno 
boondoggle of the NOAA satellites. We need to hear how you've 
made progress and how we cannot have boondoggles again. And I 
know you've carried on the spirit of reform that was created 
under Secretary Gutierrez, Becky (Acting Secretary Rebecca 
Blank) continued it, and you have, because with an 
approximately $9 billion budget request, we've got to make sure 
we use the money that we have well, and leverage that to make 
sure that America is not only open for business, but stays in 
business.
    So I look forward to your testimony and working with you to 
achieve those goals.
    Senator Shelby. Secretary Pritzker, your written testimony 
will be made part of the record. You can proceed as you wish. 
Welcome, again, to the subcommittee.


                summary statement of hon. penny pritzker


    Secretary Pritzker. Thank you very much, Chairman Shelby, 
Vice Chairman Mikulski, and members of the subcommittee. Thank 
you for the opportunity to lay out President Obama's fiscal 
year 2016 Budget for the Department of Commerce.
    This budget advances the core tenets of the Department's 
mission, to develop and implement policies that support 
economic growth, to help America's businesses expand and 
thrive, both at home and around the world, and to ensure that 
the country remains competitive, stays at the forefront of 
innovation, and continues to lead the global economy in the 
21st century. To support this mission, the fiscal year 2016 
budget provides $9.8 billion of discretionary funding to 
reinforce the priorities of the Department's strategy, our Open 
for Business agenda, by promoting U.S. exports, trade, and 
investment, by spurring high tech manufacturing and innovation, 
by unleashing more data for economic benefit, by gathering and 
acting on environmental intelligence, and by making our 
agency's operations more efficient and more effective.
    Today, I want to highlight some key initiatives supported 
by this budget. First, the Commerce Department collects, 
analyzes, disseminates data that informs everyday business 
decisions. In particular, the Census Bureau creates data 
products used by businesses, policy makers, and the public. The 
fiscal year 2016 budget reflects the fact that this is a 
critical year for preparation of the 2020 Census as we test the 
use of administrative records, reengineered field operations, 
and Internet data collection, as we create new systems to 
improve coverage and quality of the Census, and as we develop 
plans for the fiscal years 2017 and 2018 integrated tests of 
the entire process, all of this combined at a potential savings 
of $5 billion to taxpayers. But to achieve these savings, we 
must invest today.
    Another part of our agenda is to help communities and 
businesses prepare for and prosper in a changing environment. 
The National Oceanic and Atmospheric Administration's budget 
will enhance our ability to meet this goal through two 
investments. First, the budget proposes $2.4 billion to fully 
fund the next generation of weather and environmental 
satellites, which provide our communities with forecasts that 
protect lives, property, and the economy. Funding the 
development and launch of future satellites is absolutely 
critical to reduce the risk of a potential gap in weather data 
in 2017 and beyond.
    Second, the budget requests $147 million to develop a high 
endurance, long range ocean survey vessel. Our fleet is in 
desperate need of renewal. Making this investment now will 
enable NOAA to take advantage of design work previously done by 
the Navy and of openings in the shipyard's schedule, both of 
which will save taxpayers millions of dollars in acquisition 
and design costs. Time is not our ally. We need to replace 
eight ships in the next 12 years, and this ocean survey vessel 
is just the first.
    For generations, manufacturing has been a key to 
innovation, a source of middle class jobs, and a pillar of our 
global leadership. Over the last 5 years, America's 
manufacturers have made a comeback, adapting, innovating, and 
adding more than 870,000 jobs, growing for the first time in 
decades. Recognizing the importance of manufacturing to our 
competitiveness, you passed the Revitalize American 
Manufacturing and Innovation Act, which calls for the expansion 
of the national network of manufacturing innovation, or NNMI. 
This initiative brings together industry, university 
researchers, community colleges, NGOs, and government to 
accelerate the development of cutting-edge manufacturing 
technologies. From the start, the competition among communities 
to host and to provide matching funds for these advanced 
manufacturing sites has been fierce. Our fiscal year 2016 
budget requests funding to oversee and coordinate current and 
future institutes and to support two institutes led by the 
Commerce Department, which would focus on lab to market 
opportunities that the private sector industry determines have 
the most potential.
    This budget will also provide the International Trade 
Administration with the resources needed to advance President 
Obama's robust trade agenda. These investments will enable our 
export assistant centers and foreign commercial service to help 
small, medium, and large size businesses expand their exports 
to new markets and to ensure that American made products make 
their way to the 95 percent of customers who live outside of 
the United States.
    Finally, our budget will allow us to continue the 
renovation of our building's headquarters here in Washington, 
D.C. This multi-year project is designed to upgrade our 80-year 
old facility's heating, cooling, plumbing, and electrical 
systems. The $24 million requested by our department will 
enable us to make better use of our space, and ultimately 
reduce the amount of funds required to house our employees.
    These priorities only scratch the surface of our 
department's work to support U.S. businesses, U.S. communities, 
and our economy. So I look forward to answering your questions 
today and to partnering with this subcommittee to keep America 
open for business. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Penny Pritzker
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for this opportunity to discuss with you 
President Obama's fiscal year 2016 budget request for the U.S. 
Department of Commerce. The investments included in the fiscal year 
2016 budget request build upon the important investments you enacted in 
fiscal year 2015 and I am grateful for your support.
    The Department plays a critical role in promoting U.S. economic 
growth and providing vital scientific and environmental information. To 
support this mission across its diverse bureaus, the budget provides 
$9.8 billion in discretionary funding for Commerce. This funding level 
will enable key investments in areas such as promotion of exports and 
foreign investment; development of weather satellites; wireless and 
broadband access; and research and development to support long-term 
economic growth. At the same time, efficiency gains, such as 
streamlining operations in the Census Bureau and reductions in lower-
priority activities enable Commerce to reduce costs and operate more 
efficiently.
    The fiscal year 2016 budget request reflects and advances the 
priorities of the Department's ``Open for Business'' Agenda. It 
maintains our role as the voice of business in the Obama administration 
by making critical investments in areas that will grow our economy and 
create good American jobs. This budget prioritizes promoting U.S. trade 
and investment, spurring high-tech manufacturing and innovation, 
unleashing more of our data, and gathering and acting on environmental 
intelligence, while also streamlining operations to help businesses 
grow. We are committed to working with Congress to achieve these goals 
so we can continue to build on our economic momentum and keep America 
more competitive in the global economy.
    The fiscal year 2016 Department of Commerce budget includes key 
investments in the following areas:
                strengthening u.s. trade and investment
    Increasing trade and investment is critical to growing our economy. 
Exports have driven nearly one-third of economic growth since 2009 and 
support 11.3 million jobs. Ninety-six percent of companies that export 
are Small and Medium Enterprises (SMEs). Today, 95 percent of potential 
customers are outside our borders and growing the number of export-
related jobs, which pay up to 18 percent more on average, will require 
expanding our ability to reach these foreign markets.
    The budget includes $497 million for the International Trade 
Administration (ITA) to strengthen the competitiveness of U.S. 
industry, promote job-creating trade and investment, and ensure fair 
trade through the rigorous enforcement of our trade laws and 
agreements. Funding for ITA includes $15 million to accelerate 
operations of the Interagency Trade Enforcement Center (ITEC), a multi-
agency effort to address unfair trade practices and barriers that 
impede U.S. exports.
    The budget also provides $20 million within ITA to further 
strengthen SelectUSA, which is the government-wide effort to promote 
and facilitate business investment into the United States. From a vast 
domestic market, to a transparent legal system, to the most innovative 
companies in the world, America is the place for business. We are very 
grateful to this subcommittee for its past support for this important 
program. Building upon the successes of the inaugural SelectUSA Summit 
in 2013, the Department will host its second SelectUSA Investment 
Summit in March 2015. Other funds will support ITA's efforts to make it 
easier for U.S. companies of all sizes to reach consumers who live 
beyond our borders, including program and policy improvements to 
provide exporters more tailored assistance and to strengthen 
partnerships at the State and local level that support export promotion 
and foreign direct investment attraction strategies.
    The President's fiscal year 2016 budget requests $115 million for 
the Bureau of Industry and Security (BIS). Following the successful 
realignment of significant license application responsibilities from 
the Department of State to BIS, our focus on capacity-building now 
shifts from export administration to export enforcement. This level of 
funding will allow us to increase the number of enforcement agents 
within BIS to ensure enforcement of export controls and compliance-
related activities to ensure that exporters and re-exporters are 
following our export control regulations.
    If we are to ensure that we can export U.S. goods more quickly, 
while also ensuring that sensitive technologies do not end up in the 
wrong hands, we must be able to educate exporters and re-exporters 
about our regulations and their responsibilities, and we must put 
sufficient teeth into our enforcement efforts. Strong enforcement 
levels the playing field for exporters, while lax enforcement threatens 
our national security and permits violators to flourish at the expense 
of the compliant.
    To continue supporting the national growth of minority-owned U.S. 
businesses, the budget includes $30 million for the Minority Business 
Development Agency. Minority owned firms make a significant and 
valuable contribution to our economy and export at a higher rate 
compared to all U.S. firms. This investment will promote further growth 
and global competitiveness of our Nation's minority-owned businesses.
            spurring innovation, growth and competitiveness
    Strengthening U.S. Manufacturing: As global competition continues 
to increase, the United States must find ways to foster the innovation 
that produces economic growth and creates well-paying middle-class 
jobs. A national effort to create institutes focused on manufacturing 
innovation will accelerate development and adoption of cutting-edge 
manufacturing technologies for new products that can compete in 
international markets. The National Network for Manufacturing 
Innovation (NNMI) provides a manufacturing research infrastructure 
where U.S. industry and academia collaborate to solve industry-relevant 
problems. To date, five institutes, funded by the Department of Defense 
and the Department of Energy, have been launched, involving more than 
300 companies and universities and attracting $480 million in private 
funding in the institutes. NNMI will keep America on the front-lines of 
discovery, which will result in our businesses, our manufacturers, and 
the American economy becoming more competitive in the 21st century 
global economy.
    The budget supports the President's vision of creating a full 
national network, expanding NNMI with up to 45 manufacturing innovation 
institutes across the Nation during the next 10 years. In total, the 
budget includes discretionary funding for seven new institutes in 
fiscal year 2016, including $140 million for the first two Commerce-led 
institutes. The budget also includes an additional $1.9 billion 
mandatory proposal to fulfill the President's vision. The budget 
includes an additional $10 million for the National Institute of 
Standards and Technology (NIST) to coordinate the activities of the 
current and future institutes, leveraging the authorities in the 
bipartisan Revitalize American Manufacturing and Innovation Act (RAMI), 
enacted as part of the Consolidated and Further Continuing 
Appropriations Act, 2015, thanks to your support.
    The budget also provides $141 million for NIST's Hollings 
Manufacturing Extension Partnership (MEP), which will continue to focus 
on expanding technology and supply chain capabilities to support 
technology adoption by smaller manufacturers to improve their 
competitiveness.
    Supporting 21st Century Economic Development: Economic Development 
creates the conditions for economic growth and improved quality of life 
by expanding the capacity of individuals, firms, and communities to 
maximize the use of their talents and skills to support innovation, 
lower transaction costs, and responsibly produce and trade valuable 
goods and services. The budget invests $273 million for the Economic 
Development Administration (EDA) to support innovative economic 
development planning, regional capacity building, and capital projects. 
Within this amount, $25 million is included for the Regional Innovation 
Strategies Program to promote economic development projects that spur 
entrepreneurship and innovation at the regional level. The EDA budget 
also includes $39 million for Partnership Planning to support local 
organizations with their long-term economic development planning 
efforts and outreach. Additionally, $53 million is provided for 
Economic Adjustment Assistance for critical investments such as 
economic diversification planning, and implementation, technical 
assistance, and access to business start-up facilities and equipment.
    Supporting the Digital Economy: The fiscal year 2016 budget request 
demonstrates the administration's continued commitment to broadband 
telecommunications as a driver of economic development, job creation, 
technological innovation, and enhanced public safety. The investment of 
$49.2 million will allow the National Telecommunications and 
Information Administration to develop, implement, and advocate policies 
to help meet challenges related to the digital economy, Internet 
openness, privacy, and security. The President's broadband vision of 
freeing up 500 MHz of Federal spectrum, promoting broadband competition 
in communities throughout the country, and connecting over 99 percent 
of schools to high-speed broadband connections through the ConnectED 
initiative will create thousands of quality jobs and ensure that 
students have access to the best educational tools available.
    The budget supports implementation of telecommunications provisions 
enacted in the Middle Class Tax Relief and Job Creation Act of 2012, 
which are expected to reduce the deficit by more than $40 billion over 
the next 10 years through spectrum auctions. These auctions will 
increase commercial access to wireless broadband spectrum while fully 
funding an interoperable public safety and first responder broadband 
network.
    Beyond our efforts to promote innovation, the budget highlights the 
administration's commitment to cybersecurity by supporting NIST's 
efforts to work with industry on implementing the Cybersecurity 
Framework of standards and best practices, as well as sustaining 
initiatives associated with cybersecurity automation, cybersecurity 
information, and the National Strategy for Trusted Identities in 
Cyberspace (NSTIC).
    Spurring Innovation for American Businesses: Through implementation 
of the America Invents Act, the U.S. Patent and Trademark Office 
(USPTO) continues to make it easier for American entrepreneurs and 
businesses to bring their inventions to the marketplace sooner, 
converting ideas into new products and new jobs. The budget supports a 
program level of $3.5 billion for USPTO, a level that would allow USPTO 
to fund operations and to further implement administrative actions 
proposed by the President's Patent Task Force.
    Fueling a Data-Driven Economy: Data is the fuel that powers the 
21st century economy, and Commerce Department data touches every 
American and informs business decisions every day. The budget will 
support data-related efforts ranging from our preparations for the 2020 
census to unleashing more NOAA data through public-private 
partnerships.
    Improving Federal Statistical Measures: The budget provides $1.5 
billion to provide critical support for the U.S. Census Bureau to 
research, test, and implement innovative design decisions made at the 
end of 2015. Funding in fiscal year 2016 supports the rapid system and 
operational development necessary to achieve the goal of conducting a 
census at a lower cost per household than in the 2010 census, 
potentially saving up to $5 billion compared to the costs of repeating 
the 2010 census design in 2020. The budget also includes a planned 
cyclical increase for the Economic Census. The budget includes $10 
million in additional funding for the Census Bureau to lay the ground 
for acquiring and processing administrative data sets in an 
administrative records clearinghouse that will benefit program 
evaluation and statistical work across the Government as well as 
amongst private researchers. The Bureau will accomplish this by 
building on its existing strengths to develop a more comprehensive 
infrastructure for linking, sharing, and analyzing key datasets.
    Gathering and Acting on Environmental Intelligence: The 
Department's environment agenda aims to help communities and businesses 
prepare for and prosper in a changing environment through the models, 
assessments, forecasts, and tools generated based on data from our 
network of satellites, ships, and world-wide sensors.
    The budget provides $6.0 billion to advance the National Oceanic 
and Atmospheric Administration's (NOAA) ability to understand and 
anticipate changes in the Earth's environment, improve society's 
ability to make scientifically informed decisions, deliver vital 
services to the economy and public safety, and conserve and manage 
ocean and coastal ecosystems and resources. The budget invests in 
NOAA's observational infrastructure, including $2.4 billion to fully 
fund NOAA's weather and space weather satellite programs. This includes 
$380 million for the Polar Follow-On satellite program, allowing for a 
launch schedule that is necessary to improve the robustness of the 
satellite systems that provide critical weather data.
    The Department continues its commitment to support a Weather-Ready 
Nation, and evolve the National Weather Service to become a more agile 
decision support organization capable of providing more accurate and 
more timely weather forecasts. The United States has the greatest 
number and greatest variety of severe weather events of any country on 
the planet. The Budget invests $1.1 billion for the National Weather 
Service, including funding increases for critical infrastructure.
    The President's budget makes investments to fill information needs 
in observations, surveys, and fisheries management, including $147 
million for a new ocean survey vessel. The budget also provides $50 
million for an expanded Regional Coastal Resilience Grant Program, 
which will help reduce the risks and impacts associated with extreme 
weather events and changing ocean conditions and uses, along with $30 
million for ocean acidification research to improve understanding of 
its impacts and support tool development and adaptive strategies for 
affected industries and stakeholders. Additionally, the budget requests 
an increase of $19 million for expanded Endangered Species and Magnuson 
Stevens Act consultation capacity that will reduce permitting 
timeframes.
    Streamlining Operations: To further the President's goals of 
improving customer service and enhancing the efficiency of Government, 
the budget includes $6 million to support a Commerce Digital Services 
team to adopt private sector best practices and recruit talent to 
improve Commerce's information technology systems. This team will be 
responsible for driving the efficiency and effectiveness of the 
Agency's highest impact, client focused information technology systems. 
In addition, the budget includes $3 million to support the development 
of an ``Idea Lab,'' which will house a team dedicated to incubating and 
investing in innovative approaches to more efficiently and effectively 
meet Agency strategic goals and objectives through greater employee 
engagement.
                               conclusion
    With the fiscal year 2016 budget, the Department seeks to advance 
the core tenets of its mission: to create the conditions for economic 
growth; help U.S. businesses expand; and to ensure that America stays 
competitive, stays ahead, and continues to lead the global economy in 
the 21st century. The smart investments proposed in President's fiscal 
year 2016 budget will support a globally competitive economy by 
promoting trade and investment, spurring innovation, fueling a data-
driven economy, and gathering and acting on environmental intelligence. 
With this budget, I am confident that we will keep America ``Open for 
Business.'' I look forward to working with the subcommittee to achieve 
these important goals.

                   POLAR FOLLOW-ON SATELLITE PROGRAM

    Senator Shelby. Thank you, Madam Secretary. I'll try to get 
to the point on these. The Polar Follow-on mission, how long 
will this new Polar Follow-on satellite program last beyond 
2016?
    Secretary Pritzker. Well, the Polar Follow-on program is 
one that has, I think, actually quite a long life, and I can 
get you specifically, Senator--
    Senator Shelby. Will you furnish that for the record?
    Secretary Pritzker. What?
    Senator Shelby. Would you furnish that for the record?
    Secretary Pritzker. Yes, I will, sir.
    [The information follows:]

    Question. Polar Follow-on.--The Polar Follow-on mission, how long 
will this new Polar Follow-on satellite program last beyond 2016? Will 
you furnish that for the record?
    Answer. The Polar Follow-on (PFO) implements a long term strategy 
to build a robust \1\ architecture that will extend operations of the 
overall polar satellite system to as far as fiscal year 2038. PFO is 
essential to maintaining continuity of polar observations, ensuring 
NOAA continues to provide accurate and timely weather forecasts and 
warnings beyond JPSS-2.
    NOAA is focused on achieving polar-orbiting weather constellation 
robustness. The fiscal year 2016 President's budget request includes 
$380 million for PFO activities designed to achieve robustness as early 
as fiscal year 2023 and ensure continuity of NOAA's polar weather 
observations. There are three activities funded within PFO:
  --initiate development of PFO/JPSS-3 to meet a launch readiness date 
        (LRD) in the second quarter of fiscal year 2024, and PFO/JPSS-4 
        development to meet a LRD in the third quarter of fiscal year 
        2026.
  --provide the option to accelerate PFO/JPSS-3 as a contingency 
        mission with critical sounders Advanced Technology Microwave 
        Sounder (ATMS) and Cross-track Infrared Sounder (CrIS) only.
  --invest in development of an advanced technology Earth Observing 
        Nanosatellite-Microwave (EON-MW).
    NOAA will manage the PFO as an integrated single program with JPSS 
to incorporate efficiencies planned and implemented under JPSS. 
Authorizing PFO in fiscal year 2016 will allow NOAA to take advantage 
of the ongoing JPSS-2 instrument and spacecraft bus development to 
reduce schedule, risk and life cycle costs for the follow-on missions 
and implement a simultaneous instrument block buy for PFO/JPSS-3 and 
PFO/JPSS-4 instruments for the most efficient acquisition strategy and 
production cadence.
---------------------------------------------------------------------------
    \1\ The definition of a ``robust'' architecture has two 
characteristics: (1) two failures must occur to create a gap in data 
from Advanced Technology Microwave Sounder (ATMS) or Cross-track 
Infrared Sounder (CrIS) instruments and (2) the ability exists to 
restore a two-failure condition within 1 year of an on-orbit failure.

    Secretary Pritzker. The Polar Follow-on is a very important 
program for us, and thank you for the support that we've 
received in the past for this program.
    One of the things that is important to know is that our 
satellite program, years ago, was not so well run. Today, we 
run a program that is on time and on budget. GOES-R Series 
program and our JPSS program are on schedule and on budget. But 
this potential for a gap that you talked about in your opening 
statement is one that we're very concerned about. The 
opportunity to do the Polar Follow-on is to allow us to use 
instruments that would be used for our JPSS-3 and -4 
satellites. We would order them today, and if, God forbid, 
there's any kind of disruption in the satellite program that we 
have coming along, we can use those instruments for the 
disruption, which will help address the gap, but if there's no 
problem, then we will use those instruments on JPSS-3 and -4.
    So this is a prudent way to manage our risk of a gap, but 
also, if there's no problem, then to use those instruments on 
our future satellites.
    Senator Shelby. What's the overall cost of the program, and 
do you have some projections on that? I would think it would 
be----
    Secretary Pritzker. I can get you those numbers. I know the 
request this hour is $380 million, but I don't know the--I'll 
get you the precise numbers.
    [The information follows:]

    Question. Polar Follow-on.--What's the overall cost of the program, 
and do you have some projections on that?
    Answer. NOAA has an initial life cycle cost (LCC) estimate for the 
PFO of $8.2 billion. NOAA will continue to refine the LCC estimate 
through 2016.

    Senator Shelby. But generally, these kind of programs cost 
billions of dollars.
    Secretary Pritzker. Yeah. I'm sorry, Senator?
    Senator Shelby. I said, these programs cost billions of 
dollars.
    Secretary Pritzker. Right. What we've been doing is trying 
to manage, right at this moment, how to deal with the gap, but 
also not waste money, so that if there is no problem, then the 
monies that we spend today, the $380 million, can be used in 
future satellites. But I'll get you the--we're working right 
now on the total cost of those programs.
    Senator Shelby. Some specifics. The JPSS currently has an 
overall cost cap of $11.3 billion. How is this follow-on 
program, how does it differ from the JPSS and not just an 
extension thereof?
    Secretary Pritzker. No. It's included in the JPSS program, 
I believe.
    Senator Shelby. Ma'am.
    Secretary Pritzker. I believe it's part of the JPSS 
program.
    Senator Shelby. So it's an extension of it in a sense. 
Would you call it that, if it's part of?
    Secretary Pritzker. I don't think it's an extension. I 
think it's actually within the program you're discussing.

              NATIONAL NETWORK OF MANUFACTURING INNOVATION

    Senator Shelby. On the Network for Manufacturing 
Innovation, given our fiscal constraints, how would you balance 
the funding request for this new initiative with that of 
necessary funding for core programs, such as the Decennial 
Census? And how would the Department go about selecting the 
locations of these new institutes that you propose, and what 
assurances can you make to this subcommittee that the process 
would be transparent and fair?
    Secretary Pritzker. Well, Senator, first of all, running a 
transparent and fair process is something that we, at the 
Department, are committed to in all of our programs.
    In terms of ensuring that the monies would be spent wisely, 
first of all, the National Network of Manufacturing Innovation, 
I think, is one of the best crafted programs that we have for 
innovation development, because it requires a partnership 
between the private sector, universities, the supply chain, 
community colleges, local government, and the Federal 
Government. And I've gone to visit the institute in Chicago 
that's devoted to digital manufacturing, and what you learn is, 
is that for these programs to be able to be successful, it 
takes the best of all of these stakeholders in order to bring 
the best technologies.
    What differentiates the two institutes that we're proposing 
for the Department of Commerce to run is that the technologies 
that we would promote are technologies that would be determined 
by the private sector, as opposed to determined by the Federal 
Government. And the Department of Defense's and Department of 
Energy's Advance Manufacturing Institutes, those technologies 
have been driven by the needs of those departments.
    The other thing to remember is is that our proposed budget 
of $150 million is made up of really three components, two 
institutes that would be funded each at $20 million a year in 
year one, $20 million a year in year two, and then $10 million 
a year each for years three through five, and then $10 million 
to run the network. And one of the things that I think is 
extremely important is that we actually put together an effort 
to support this as a network.
    Your point about making sure that there are not communities 
left out of these technologies, one of the things that we've 
seen as these institutes have continued to be competed, is that 
more and more universities are reaching out to partners in 
different parts of the country, and also the companies that are 
participating are from all over the country. So the geography, 
they have to exist someplace, but the truth is the participants 
tend to have a multiplicity of locations.
    And I can give you examples. I could get our staff to give 
yours specific examples. For example, in Chicago, I think there 
are a number of universities throughout the Midwest all the way 
down to Texas that are participating, and this is true of the 
other institutes as well. It's become much more of a consortia 
process, where then researchers go to that location, but 
they're still affiliated with their local universities.
    Senator Shelby. That information would be helpful.
    Secretary Pritzker. Terrific. Happy to supply it.
    [The information follows:]

    Answer. NIST/DOD Response.--There are three existing DOD-led 
manufacturing institutes: America Makes headquartered in Youngstown, 
Ohio focused on additive manufacturing; Lightweight Innovations for 
Tomorrow (LIFT) headquartered in Detroit, Michigan focused on 
lightweight metals; and Digital Manufacturing and Design Innovation 
headquartered in Chicago, Illinois focused on the digital thread for 
manufacturing. Each institute serves to anchor the region on their 
respective technologies while growing to national prominence as 
reflected in their diverse and growing memberships as outlined in the 
two examples below:
    1. America Makes--currently has 6 Federal Government Agency 
members, 36 Universities and other Academia members, 62 Industry 
members, 14 Non-Profit Organizations, and 3 Manufacturing Extension 
Partnerships all spread across 28 States including: Alabama, Arizona, 
California, Colorado, Connecticut, Delaware, Florida, Illinois, 
Indiana, Kentucky, Louisiana, Massachusetts, Maryland, Michigan, 
Minnesota, Missouri, North Carolina, New Jersey, New Mexico, New York, 
Ohio, Pennsylvania, South Dakota, Tennessee, Texas, Virginia, 
Wisconsin, West Virginia.
    2. Digital Manufacturing and Design Innovation, headquartered in 
Chicago, Illinois, currently has the following members who have signed 
a membership agreement: 1 Government member, 20 Universities and other 
Academia, and 47 Industry members, spread across 25 States including: 
Alabama, Arizona, California, Colorado, Iowa, Illinois, Indiana, 
Kentucky, Massachusetts, Maryland, Michigan, Minnesota, Missouri, 
Mississippi, North Carolina, Nebraska, New York, Ohio, Oregon, 
Pennsylvania, Tennessee, Texas, Utah, Virginia and Wisconsin. There are 
an additional 9 Federal Agencies and Services involved including Army, 
Navy, Air Force, NIST, National Science Foundation, NASA, Defense 
Logistics Agency, DOE, and Office of the Secretary of Defense. 
Additionally, original team members are in the approval process for 
signing the current membership agreement: 3 Government members, 10 
Universities and Academia, and 31 Industry members, adding 5 States and 
the District of Columbia including: District of Columbia, Florida, 
Georgia, Maine, New Hampshire, and Washington.

    Secretary Pritzker. My last point on this, Senator is one 
of the things that is so important to remember about this 
effort is that, for us to remain competitive, we need to get 
our best technologies out of the laboratory and to market, and 
we need to do it expeditiously.
    To give you an example, today, we have five institutes, 
five or six, that have been called for. And Germany has 60 of 
these today. So this is an important part of our remaining on 
the cutting edge of innovation. And we know that a third of our 
economic growth since 2009 has been through innovation.
    Senator Shelby. Senator Mikulski.

                            NOAA SATELLITES

    Senator Mikulski. Thank you, Mr. Chairman. Secretary 
Pritzker, I'm going to pick up on NOAA satellites, an issue 
that we began--first of all, I've been NOAA satellite obsessed. 
Number one, because of the role they play in helping us predict 
the weather. Second, that our satellites are aging in place. 
But third, that our satellites were really--and the operation 
was bordering on a techno boondoggle.
    Starting with Secretary Gutierrez, then with Dr. Becky 
Blank under the Obama administration, and now with you, we 
really wanted to reform the satellite program. NOAA's 
satellites, why am I so hot on the satellites? It makes up 20 
percent of your budget and 60 percent of the NOAA budget. So if 
satellites don't work, we're impeded, because it's a negative 
on our ability to provide contemporary and global weather 
forecasting, and it knocks the hell out of our budget.
    So my question to you is three-fold. Number one, do you 
continue to reform and do the vigorous oversight that was at 
the highest level under the Department of Commerce? Number two, 
does this budget that you're asking fund the satellites that we 
have while we're looking at the cool new stuff. And number 
three, for the cool new stuff and the JPSS, the satellites -3 
and -4, what is it that you're doing now to prepare yourself, 
because I do worry about our satellites aging in place?
    Secretary Pritzker. Well, Senator, thank you.
    Senator Mikulski. So that's reform, how are we doing with 
what we've got now, and number three, are we really doing the 
right planning for the future?
    Secretary Pritzker. Well, Senator, first of all, thank you 
for asking. I mean, the satellite program is near and dear to 
my heart, as it is to yours, to make sure--because what's at 
stake here? What's at stake are lives and property as well as 
the ability for our businesses to get their goods and services 
to market, as well as for our employees to get to work. And so 
it's a very serious and very important endeavor that we have.
    So the reform and good management are of the highest 
priority for our team at NOAA and at the National Weather 
Service. And Dr. Uccellini, who you know well----
    Senator Mikulski. I just need you to keep moving it, 
because I've got only three more minutes to go.
    Secretary Pritzker. Got it. Sorry about that. Anyway, in 
terms of satellites, yes, we're totally committed to reform. In 
terms of the JPSS program, this is one that it's extremely 
important that we fund our polar satellites, and yes, that's 
included in our budget. And then as you call it the cool new 
stuff, or the Polar Follow-on, is extremely important, because 
what it will do is serve two purposes for us. One, in case 
there's any kind of launch disaster, we'll have instruments in 
the pipeline. And second, if there is no disaster, or in case, 
for example, the existing polar satellite Suomi National Polar-
orbiting Partnership (NPP) that's up there that is past its 
useful life, if we have a gap, we have instruments in the 
pipeline. And otherwise, we will use those instruments on JPSS-
3 and -4.

                    NATIONAL INSTITUTES OF STANDARDS

    Senator Mikulski. I appreciate that. And I think you see 
here a bipartisan support for the necessity of the satellites, 
but to make sure we're getting our money's worth.
    I'd like to go into another agency, the National Institutes 
of Standards. And I say to my colleagues, particularly the new, 
if you want to look at cool stuff, come to Maryland and what 
your great Federal labs are doing. And everyone here is 
familiar and enormously supportive of NIH. I know the Chairman 
certainly is. But the National Institutes of Standards, which 
it sounds kind of geeky, because they do measurements, really 
helps move jobs to the private sector.
    My question to you, Secretary Pritzker, could you elaborate 
on the labs to market and also how you're working with the 
private sector?
    I have an example here where MedImmune, a pharmaceutical 
company in my State that employs 2,000 people, that's just a 
few miles from NIST, has signed a contract with them, a 5-year 
Government agreement, giving it access to NIST expertise and 
measurement, and is helping pay for seven post-doctoral 
researchers to be used in pharmaceutical research. And 
MedImmune is crazy about this. They're going to be what the 
private sector does, but they need the Government to help them 
with the new measurements and the new way of accessing things 
for the new biosimilars and other products. So MedImmune says 
it can't grow and bring other ideas to market without NIST.
    Could you talk about what NIST means in labs to market? 
Because whether it's our Federal labs, whether it's our 
universities and so on, it is about, ultimately, the new ideas 
that create new products, that will create the new jobs. Could 
you elaborate?
    Secretary Pritzker. Yes, Senator. Recently, I was out at 
Stanford. And one of the things to remember, what does NIST do? 
NIST sets standards for everything that we use, whether it's 
buildings or it's biosimilars. So right now, in terms of 
biotechnology and bioengineering, it's extremely important that 
we begin to figure out how to measure things that are being 
developed in the laboratory so that then they can--first of 
all, those products can be replicated to a certain specificity. 
But if there's no way to measure what it is you've got, there's 
no way then to know if you've replicated it.
    So it's an extremely important function that we play. It's 
a very broad function. But it's absolutely--for innovation in 
America, and for the ability of our businesses not only to be 
successful in our country and innovate here, but also around 
the world, NIST, the development of standards, is something 
that is critical in this development of measurements. And that 
role is something that is one I've come to really appreciate.
    Senator Mikulski. So what is the labs to market going to 
do?
    Secretary Pritzker. So labs to market, we have a number of 
efforts. First of all, we have the National Network of 
Manufacturing Innovation, which is about how do we take 
technologies in manufacturing, and how do we bring them to 
market. And those are in different areas, whether it's 3D 
printing, composite materials, lightweight materials.
    There's other efforts in our Centers of Excellence at NIST 
that are focused on advanced materials, whether they're in 
biosimilars, forensic sciences, disaster resilience. These are 
areas where NIST will provide and work with a new business 
model to leverage outside research expertise with university 
expertise to bring these concepts and new discoveries to 
market.
    And these are topics that are developed in partnership. And 
that's what NIST is also really good at, is working in 
partnership with the most cutting-edge researchers, but also 
with the private sector, so that ideas don't just sit in our 
universities, or sit in our laboratories, whether they're 
Federal or they're private universities, it's important that we 
get those technologies out into the marketplace.
    Senator Mikulski. Okay. My time is up. But I just say to my 
colleagues, when we all worked with mammogram standards, it was 
NIST that helped develop what the standards should be, and I 
could give lots of examples. Come on down and visit. We'd have 
a good time.
    Senator Collins. Thank you, Mr. Chairman. Madam Secretary, 
welcome.
    Secretary Pritzker. Thank you.

                            UNFAIR SUBSIDIES

    Senator Collins. Along with my main colleague, Senator 
King, and Representative Poliquin, I recently wrote you about 
the unfair subsidies provided by the Provincial Canadian 
Government of Nova Scotia to a paper producer in Port 
Hawkesbury. I very much appreciate your very prompt response.
    Our highly skilled paper workers in Maine can compete 
successfully whenever there's a level playing field, but they 
cannot compete when a foreign government is providing more than 
$100 million of subsidies to a mill that is manufacturing the 
same kind of product.
    I understand that the coalition for fair paper imports, 
which includes Madison Paper Industries, which employs 240 
workers in my State, will soon file a petition for 
countervailing duties covering the imports of supercalendered 
paper from Canada in response to the more than $125 million in 
subsidies already provided by Nova Scotia.
    Can you update me on what the next steps would be in 
dealing with these unfair subsidies once the petition is filed, 
which will happen shortly?
    Secretary Pritzker. Senator Collins, first, as you know, we 
take enforcement and compliance very seriously at our 
department. Ensuring a level playing field is one of our number 
one priorities at the International Trade Administration, and 
enforcing trade remedy laws is something that is very, very 
important to me personally.
    We will keep you informed as we can. There are rules about 
what we can say at different points during the process. But as 
appropriate, absolutely, we would be happy to keep you 
informed.
    Senator Collins. Thank you very much. The other issue that 
I want to mention to you today is the U.S.-Canadian Softwood 
Lumber Agreement. This was negotiated in 2006, and it had been 
said to expire in 2013 but was extended to October of this 
year.
    I will tell you that this is an extremely complicated 
agreement. It involves different patterns of ownership of the 
land in Canada, different stumpage fees. The location of cross 
border mills makes it extremely complicated. And the previous 
agreement was plagued by a failure of our Government to enforce 
it fully when the Canadians, on occasion, violated it.
    As the deadline approaches for the expiration of the 
agreement in October, I ask that the Department as well as the 
U.S. Trade Representative, and I know you can't speak for him, 
but I ask that your department be very engaged with U.S. 
forestry stakeholders and the Canadian Government. And 
specifically, because of the complexity, because the maritime 
provinces are different in their ownership than British 
Columbia for example, because we have mills right on the border 
that process lumber that is cut, where the wood is cut in 
Maine, I would ask that you develop a process to ensure that 
the views of Maine stakeholders are considered as you go into 
the new negotiations.
    Secretary Pritzker. Well, Senator, I appreciate your 
raising this agreement. And we'll work with you and your staff 
to better understand the issues at stake and to make sure that 
we take the citizens of Maine's interests into consideration as 
we deal with it.
    Senator Collins. Thank you very much.
    Secretary Pritzker. Thank you.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you. I don't know how often it is 
that a previous set of questions so well sort of queues up for 
what I want to ask you about the paper industry and a level 
playing field.
    So my first question is in relation to the Department's 
role in ensuring a level playing field for U.S. manufacturers, 
and particularly in the paper manufacturing sector. It's 
especially important in my home State of Wisconsin.
    And I do want to applaud the administration's recent WTO 
challenge to China's Export Subsidy program, which provides $1 
billion in illegal subsidies over 3 years. And while this $1 
billion subsidy, it's large, it pales in comparison to the 
estimated $33 billion in government subsidies that Chinese 
paper companies have received over the last decade.
    Now, not only are paper companies in China receiving 
extensive State-backed support, but we continue to see 
importers bringing Chinese paper products, especially thermal 
paper products, into this country that are subject to 
antidumping and countervailing duties, without paying a dime in 
duties.
    And I understand that the budget request contains $15 
million for the Interagency Trade Enforcement Center, which in 
my mind, should be working to eliminate these kinds of 
practices. In addition, there is $16.4 million specifically for 
China antidumping and countervailing duty enforcement and 
compliance activities. These amounts are similar to previous 
years, and yet paper companies in my State do not feel like 
there has been adequate attention to stem this tide.
    So do you agree that this is a significant problem? And if 
so, how is your budget going to help stop it?
    Secretary Pritzker. Senator, thank you. You know, trade 
enforcement is a big priority for us at the Department and this 
administration, and we need to be very serious about this to 
ensure that American workers and businesses are competing on a 
level playing field, as you mentioned, around the world.
    And the President established the Interagency Trade 
Enforcement Center in 2012 to enhance our ability to identify 
and address violations of trade agreements. And that's why 
we've asked for an additional $15 million in this budget to 
allow us to add personnel to the ITEC and continue to enhance 
these efforts to fight challenges like you were talking about 
for your paper industry and challenge and address unfair trade 
practices.
    [The information follows:]

    The Department of Commerce has had frequent conversations with 
Senator Baldwin's office on a number of requests the Senator had with 
Secretary Pritzker during the hearing. Per the request of the Senator's 
office, we held an AD/CVD briefing with her office. This briefing-
covered the basics of AD/CVD as well as included a focus on cases 
involving China. Additionally we are working with Senator Baldwin's 
office to hold a joint DOC/USTR briefing on the basics of the ITEC 
program. We expect that briefing to take place soon.

    And I'd be happy to have our staff follow up on the 
specifics of the paper challenge for Wisconsin. I just want you 
to know though that, in terms of today, we have about 310 
antidumping and countervailing duty orders in place, and 40 
percent of those are on products from China. So we take this 
role extremely, extremely seriously. And last year alone, we 
brought more cases than we have any year in the past 10 years.
    Senator Baldwin. Thank you. I want to turn to another topic 
that was raised earlier, which is the National Network for 
Manufacturing Innovation. And I'm actually pleased to see that 
the President's budget request is working to make sure that the 
next wave of high-tech innovation is happening here in America 
rather than overseas.
    I can tell that, in my home State of Wisconsin, 
organizations like the Water Council and the Midwest Energy 
Research Consortium are really already doing the hard work of 
on the ground organizing of clusters of innovation around 
private industry and academia. And I give you an open 
invitation to come visit those efforts, which are very 
impressive.
    But as we move forward, I want to kind of dovetail on 
Chairman Shelby's question of what sort of input are you taking 
from the private sector, from academia in making decisions 
about what these next institutes will embrace? Is there an open 
call for ideas? Are you holding workshops? My constituents are 
very eager to know how they can highlight the work that's 
already being done on the ground.
    Secretary Pritzker. So as you know, the legislation passed 
at the end of last year, but NIST has been focused on how to 
run, how to garner this kind of information for the past 
several years and is putting in place--and that's why we've 
asked for the $10 million, but we have ideas and plans, but we 
want to garner that kind of input from the private sector to be 
able to have a broad effort outreach, so that we're gathering 
the best ideas available from the private sector.
    Senator Baldwin. Well, as those are developed, I hope you 
will come and have your staff brief interested subcommittee 
members on how that's developing, because our constituents are 
very eager to know.
    Secretary Pritzker. Would be delighted to do that. I know 
it's an area of interest to many of you.
    Senator Shelby. Senator Lankford.
    Senator Lankford. Thank you. And thanks for being here as 
well.

          INTERNET CORPORATION FOR ASSIGNED NAMES AND NUMBERS

    Secretary Pritzker. Thank you.
    Senator Lankford. Grateful to be able to have the 
conversation. I want to talk a little bit about where we stand 
with ICANN, once favored conversation, and DNA--or I'm sorry, 
DNS, not DNA. DNA would be fun to talk about as well, by the 
way, if you want to talk about that.
    But the budget request has a note in it that I thought was 
interesting. It says in fiscal year 2016, NTIA will continue to 
develop, implement, and advocate policies positioning the U.S. 
to meet growing complexities and political challenges related 
to Internet governance and the domain name system.
    Tell me the status of where you're headed on this. And 
obviously, Congress has spoken back on it, is a little 
hesitant. So specifically, while you're talking about status on 
it, how are you balancing the foreign policy objectives with 
United States commerce, and I mean commerce as a whole of our 
business world, and how dependent we really are on this 
Internet.
    Secretary Pritzker. Well, let me start by saying NTIA, our 
role is stewardship of the Internet. And so our goal has been 
to continue to move ICANN to a multi-stakeholder model. And in 
fact, we deal directly with ICANN, and the leadership of ICANN 
and their CEO is coming in tomorrow.
    Senator Lankford. Can I interrupt for just a second? The 
question there is the why. And I think it's the----
    Secretary Pritzker. Why?
    Senator Lankford [continuing]. Policy question, why try to 
move that outside of stewardship? Has it been a problem that 
we've been a steward with it? Why remove American stewardship 
from the Internet?
    Secretary Pritzker. Well, we're not giving up our 
stewardship of the Internet. But the challenge that we face 
with the ICANN IANA transition is this is a--and first of all, 
we're not going to give up our position of overseeing the IANA 
domain name situation, unless we can assure ourselves there's a 
multi-stakeholder process, and it's not going to be 
jeopardized, that there's going to be stability and resiliency 
and security in the domain name system, and that it meets the 
needs of global customers, and that the Internet will remain 
free and open.
    The challenge we face in our role is the perception of our 
role in the global environment. There is a lot of pressure, as 
you said, from foreign governments to, in essence, take over 
control of the Internet and try and create places where 
governments are in control of what's happening with the 
Internet. We think that is the wrong direction to go, and 
therefore, what we feel is that we're really an oversight. 
ICANN is actually performing the IANA functions.
    And so our goal is that ICANN continue to perform those 
functions. But the appearance of our engagement creates this 
notion of that the U.S. is a government in control, and that's 
against where we ultimately--we want to be able to argue with 
the rest of the world, that's not what we want to see of the 
Internet.
    Senator Lankford. Right. I understand. And the skepticism 
is when we release the first generation, there may be some good 
oversight of that, and then what happens 5 years from now and 
etc., so what happens with China and Russia? And we can have a 
longer conversation. I just want to be able to express some 
continuing skepticism on it.
    Secretary Pritzker. Senator, I share your concern about 
that. And one of the criteria that I've said is is we've asked 
for ICANN to explain to us how they're going to be accountable 
to a multi-stakeholder process, and there cannot be what I call 
a hostile takeover of ICANN.
    Senator Lankford. Correct. And I would affirm that. One 
other thing I just want to be able to chat about as well are 
the IG reports. As I got a chance to go through some of those, 
some of the high risk contracting, it sounds like you're 
working through that process on that. I'd just affirm that, to 
continue to press on that.

              COMMERCE BETWEEN THE UNITED STATES AND CUBA

    And then one other question that I wanted to be able to 
bring up to you deals with Cuba and the Cuba policy at this 
point. You and I have exchanged letters back and forth, and 
thank you for being prompt in your response on that. I really 
do appreciate that.
    As we've exchanged letters, the question that I had is, the 
Administrative Procedures Act is pretty clear that you can only 
use the statement about this being foreign affairs related if 
there's an emergency situation. I'm still trying to determine 
what the emergency situation was to make the change in Cuba 
policy without going through the Administrative Procedures Act, 
without opening this up.
    Secretary Pritzker. Senator, I would have to work with my 
staff and your staff to address that specific issue, because 
I'm not familiar with it particularly, but I'd be happy to do 
that.
    Senator Lankford. Yeah, because glad to be able to follow 
up on it. What I don't want to do is open the door, which it 
appears to have just happened, because the President, any 
president--and this is not about a personal thing on the 
President by any means and their agreement and disagreement on 
Cuba policy and where it's going, but when we make a change in 
policy that doesn't follow the Administrative Procedures Act 
and you reach back on a 70-year-old law and say, we're going to 
practice this a little different than what has been done in the 
past, it concerns me.
    Secretary Pritzker. I understand your concern.
    Senator Lankford. And the change in Cuba policy seemed to 
be connected to, this is foreign, and so it's allowable. With 
that exception, anything related to a foreign government would 
be allowable. And the Administrative Procedures Act was pretty 
clear it had to be an emergency situation.
    Secretary Pritzker. Well, following the law is our number 
one objective here at the Department of Commerce, and in terms 
of the specifics of the Cuba policy as it relates to the 
Administrative Act, we'll be happy to follow up with your 
staff.
    Senator Lankford. Thank you. We'll follow up from there. 
Thank you. I yield back.
    Secretary Pritzker. Thank you.
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you, 
Secretary Pritzker, both for your service and for being here 
today.

                       NOAA MANAGEMENT OF FISHING

    Secretary Pritzker. No, thank you.
    Senator Shaheen. My first concern that I want to raise 
today is about the impact of NOAA's management decisions on our 
fishing industry in New Hampshire. I think we all share the 
concern that we want to see stocks rebound in the Gulf of Maine 
and in the Atlantic. But in November, NOAA announced the 
immediate implementation of additional closures in the Gulf of 
Maine and other limitations on fishing capacity for the 
remainder of this fishing season.
    I've heard concerns from fishermen in New Hampshire, not 
just about the decisions that were made, but also about the 
lack of notice and about the lack of transparency in how this 
process was handled.
    New Hampshire, which started out as the smallest fishing 
fleet in New England, has been hit hardest by management 
decisions for years now. The latest regional economic impact 
estimates predict that New Hampshire fishermen are likely to 
see their reduced revenues cut by an additional almost 50 
percent from this year to next. And that's more damage than any 
other State in our region is experiencing.
    So not only am I concerned about the decisions that have 
been made and the impact, but also about the lack of 
transparency, the lack of engagement with the industry, and the 
lack of notice. So I wonder if you could speak to that, and if 
you could give me a commitment that you will personally look at 
what's being done there and see what we can do to make some of 
those decisions less impactful on New Hampshire?
    Secretary Pritzker. Well, Senator, first of all, I know how 
important fishing is to all the coastline communities, and 
particularly in New Hampshire. And, you know, it's a difficult 
time, as you know, for New England fisheries and communities. 
And that is why we put John Bullard up in that area, to work to 
assist, and working with the communities and fishermen.
    And I will follow up with him to understand what the issue 
might be around notice and transparency. He prides himself in 
trying to work very closely with all of the stakeholders, and I 
have a lot of confidence in him, so I want to find out exactly 
what happened.
    Obviously, it's a tough time, because the stock is in the 
worst shape that we've seen in 40 years. And so we appreciate--
I am very sensitive to the impact on families, on the 
businesses of these decisions, and I will personally look into 
this issue around transparency and notice, because we 
absolutely--our goal is to work very much with the 
stakeholders, local stakeholders, and that's why we actually 
put someone in the marketplace.
    Senator Shaheen. Well, thank you. I appreciate that. I hope 
that thought will also be given to how to ameliorate the impact 
on the fishing industry in New Hampshire, which, as I said, 
started out with some obstacles that are not shared by other 
states in New England.
    Secretary Pritzker. And we're working on making sure the 
fishery disasters funding----
    Senator Shaheen. Which has been very helpful. Thank you.
    Secretary Pritzker [continuing]. It gets to the State as 
quickly as possible.

                             EXPORT CONTROL

    Senator Shaheen. Thank you very much. I was pleased to 
hear, both in your testimony and your written testimony, the 
emphasis on exporting. I think it's very important. It's been 
very important to our small businesses in New Hampshire. And 
one of the aspects that has been challenging for many of our 
businesses has to do with our export control system, and I know 
that has been under reform over the last several years.
    And I wonder if you could both talk about where we are in 
terms of reforming the export control system and also what kind 
of efforts are being undertaken to get the word out to small 
businesses about the changes that are being made and what kind 
of reaction you're getting from them with respect to those 
changes.
    Secretary Pritzker. Well, Senator, I appreciate your 
asking. As you're aware, the Export Control Reform, we have 
about 15 of the 21 munitions lists are completed at this point, 
and we're continuing to make progress on the simplified system, 
so that we can strengthen our national security and 
competitiveness. That will mean for BIS that our number of 
licenses per year will go from 25,000 to over 50,000 by fiscal 
year 2016. So we're sort of more than doubling both licensure 
work.
    In order to do that well, it's really important that we 
have funding to be able to get the word out. We have not had 
funding over the past several years to be able to really go out 
and promote what's happening in terms of Export Control Reform. 
That would be extremely important. And then the second is, 
we're requesting funding to increase enforcement, something 
that I know is of interest to a number of the senators here.
    As we increase the number of licenses, we need to be able 
to increase enforcement as well as we need to be able to 
increase our ability to gather information before we give a 
license to someone. So we're very much focused on how all of 
this is connected together. We want to service our clients as 
well as possible, and that's why you see us asking for an 
increase here. It's really due to the fact we're being asked to 
do much more work because of the new items, I think it's tens 
of thousands of items, that have been transferred from the 
State Department to us.
    Senator Shaheen. Well, my time is over, but again, I want 
to applaud that effort and encourage you to continue to work 
very hard on that and to suggest that maybe there's an 
opportunity working with SBA to help with outreach to small 
businesses, because they have fewer resources to be able to 
export, and anything that can be done here is really important.
    Secretary Pritzker. And I'm quite focused on helping small 
and medium sized businesses export. I've had a lot of 
opportunity to meet with them over the last several months.
    Senator Shaheen. Thank you.
    Senator Shelby. Senator Collins, you have a comment.
    Senator Collins. Thank you, Mr. Chairman. Since I had 40 
seconds of my time that I didn't use, I would just want to 
reclaim it, and I thank the Chairman for allowing me to do so.
    I just want to associate myself with the comments made by 
the senator from New Hampshire on the fishing issues. I've 
heard exactly the same concerns from the lobstermen and the 
fishermen who fish and do lobstering in the Gulf of Maine. And 
there's a great deal of anger about the new regulatory 
restrictions, the lack of consultation, and I'm very concerned 
about it. So I just wanted to associate myself with Senator 
Shaheen's comments. Thank you, Mr. Chairman.
    Senator Shelby. Senator Kirk.
    Senator Kirk. Secretary Pritzker, Penny, I wonder if I 
could raise an issue with you about OSI, one of our largest 
food processors in Illinois, who has had problems with the 
Chinese Government. I know you may have raised these issues at 
the JCCT, which you graciously held in Chicago.
    Secretary Pritzker. Senator, let me tell you. I did speak 
at the highest levels about OSI to the Chinese Government. We 
are following this case very carefully to make sure that OSI is 
being treated fairly. There have been some positive signals 
that we have received, and so this is something that's high on 
our priority list to follow.
    Senator Kirk. Thank you. Thank you, Mr. Chairman.
    Senator Shelby. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Welcome, 
Madam Secretary.
    Secretary Pritzker. Thank you, Senator.

                           FISHING REVISITED

    Senator Murphy. I wanted to follow up on questions 
regarding New England fishing. In Connecticut, our fishing 
industry has been decimated. We were largely a shellfish 
economy along the shoreline. And as our lobsters have moved 
northward to Maine, we have struggled to figure out how we 
replace that capacity. But aquaculture has been a part of that, 
and we've had some real encouraging developments regarding new 
technologies through which we're able to harvest some pretty 
serious new amounts of oysters and other native species through 
the sound.
    We have a lab in Milford, Connecticut that gets about $3.4 
million in Federal funding along with lab in Manchester, 
Washington. These are the two facilities that house NOAA's 
shellfish research. That's an industry that, right now, even 
with the declines, produces about $30 million for Connecticut 
along.
    I just wanted to make sure that there's still going to be a 
commitment to this aquaculture research, both in Connecticut 
and in Washington. We're seeing real progress and real gains 
because of that funding, and it's important to us that that 
commitment continue.
    Secretary Pritzker. I appreciate that. And as far as I 
know, there's no change. But I will make sure and confirm that.
    [The information follows:]

    Question. Aquaculture and Milford Lab.--We have a lab in Milford, 
Connecticut that gets about $3.4 million in Federal funding along with 
lab in Manchester, Washington. These are the two facilities that house 
NOAA's shellfish research. That's an industry that, right now, even 
with the declines, produces about $30 million for Connecticut. I just 
wanted to make sure that there's still going to be a commitment to this 
aquaculture research, both in Connecticut and in Washington. We're 
seeing real progress and real gains because of that funding, and it's 
important to us that that commitment continue.
    Answer. Yes, that commitment will continue. Science is essential to 
supporting aquaculture expansion in an intelligent and sustainable 
manner, and NOAA supports U.S. aquaculture development in part through 
world class research. It is clear from past experience both at home and 
abroad that poorly sited or managed marine aquaculture operations can 
have negative impacts to the marine environment. But with sound 
scientific advice and science-based tools, it is possible to avoid such 
potential impacts and allow for the industry to grow in environmentally 
and economically sustainable ways.
    NOAA' s aquaculture science portfolio comprises complementary and 
coordinated efforts in three NOAA line offices. Together these efforts 
are critical to achieving the administration's goal of supporting 
sustainable marine aquaculture. NOAA Fisheries focuses on developing 
science-based ``tools for rules'' to help inform permitting and other 
regulatory decisions, as well as working with industry partners on a 
range of topics such as hatchery techniques and disease management. The 
NOAA National Ocean Service develops coastal planning and management 
tools and services. The Sea Grant program at NOAA's Office of Oceanic 
and Atmospheric Research provides grants to external partners for 
industry development, as well as technology transfer and extension. 
These efforts and those of other Federal agencies (e.g., USDA) are 
coordinated under the 2014 The Strategic Plan for Federal Aquaculture 
Research, published with NOAA' s assistance and leadership by the White 
House's Office of Science and Technology Policy.
    Two laboratories house the bulk of NOAA Fisheries' aquaculture 
science portfolio--the Northeast Fisheries Science Center's Milford, 
Connecticut lab; and the Northwest Fisheries Science Center's 
Manchester, Washington lab. Milford has traditionally been a shellfish 
aquaculture lab (e.g., siting tools, disease management, and ecosystem 
services) and Manchester has been a finfish aquaculture lab (e.g., 
feeds development, finfish hatchery and growout methods). However, 
there is growing coordination and collaboration in certain areas such 
as some aspects of feeds research.
    NOAA's science, regulatory, and outreach activities have made a 
substantial and measureable impact on the sustainable development of 
marine aquaculture and related jobs, especially in the northeast. From 
Virginia to New England, aquaculture has grown significantly over the 
past several years, with booming production of shellfish leading the 
way. Aquaculture in the northeast has grown to be the third most 
valuable fishery in the region, behind only lobster and scallops and 
roughly three times the value of the groundfish fishery. All 
indications are that, with continued support, there will be additional 
growth, providing more domestic seafood and jobs.

             NATIONAL NETWORK FOR MANUFACTURING INNOVATION

    Senator Murphy. And then if I could just ask a second 
question on the National Network for Manufacturing Innovation. 
I know you made reference to this in your prepared testimony. 
I'm so glad that we're continuing to expand this program. I 
think it's absolutely transformational. It's discouraging to us 
in the Northeast, which is the most densely populated part of 
the country, that with five centers, and not yet one has found 
its way to our neck of the woods.
    You, I think, in your testimony said that you were going to 
be guided by industry in terms of what the focus should be. I 
would love for you to expand on how your process is going to 
occur, so that we can make sure that industries in the 
Northeast, the aerospace industry, I would argue, at the top of 
the list, get a fair shot at making their case.
    We really believe that, as you have this tsunami of 
aerospace purchasing coming, both from the private sector and 
the public sector over the course of the next 10 years, that if 
we are innovating at a pace that's fundamentally different than 
other competitors, that we can gain a greater lion's share of 
that work. So we believe that an aerospace focused 
manufacturing innovation center should be one of the next 
that's authorized.
    But if you could just share how we can get the best input 
into your process of decisionmaking, I'd appreciate it.
    Secretary Pritzker. Well, obviously, at the time that the 
competitive process would be run, it would be open, 
transparent, and a broad request for proposals. That process 
will be dictated by NIST, as they are really our expert at 
taking things from lab to market, and they've been preparing 
for how to run these types of competitions. But I can get to 
your staff kind of the specific processes that they will use. 
And I appreciate the value of the aerospace industry, and I'm 
sure it's one that's high on the list of priorities.
    Senator Murphy. It's a moment in time where, if we capture 
the best available technology, there's a mountain of work to be 
had. And we used to just have a natural competitive advantage 
over the rest of the world that is declining, decreasing as 
time goes on.
    Finally, just to use my last 30 seconds of so, it's my 
first opportunity to be a member of this subcommittee and to 
have you testifying in front of us. I just want to tell you how 
excellent your staff is in Connecticut. Anne Evans runs the 
local office, and if she had two or three more people, she 
could be creating hundreds, if not thousands, more jobs, just 
to make an advertisement for the scope of your personnel in our 
states.
    When you have good people on the ground doing outreach to 
especially these small and medium sized businesses that have no 
idea how to compete globally if not for the expertise you lend, 
the power, the multiplication of business that your presence 
creates is pretty substantial. So please, pass my thanks along.
    Secretary Pritzker. Thank you very much. And Senator and 
Mr. Chairman and Madam Vice Chairman, one of the things I have 
asked our ITA to do is to do a review of the effectiveness of 
our U.S. Export Assistance Centers and our Foreign Commercial 
Service.
    As the success of more and more of our communities around 
our country depend upon exporting, I want to come back to you 
with a report as to where I think it would make sense for us to 
do more, because we do get this kind of response as to the 
effectiveness, particularly for our small and medium size 
businesses, which are so important to everyone's States.
    [The information follows:]

    The Department looks forward to working with the Congress on a 
funding profile for our export assistance program which ensures that 
U.S. small and medium sized businesses are on a strong competitive 
footing internationally. The Department is currently assessing our 
domestic and international capacity for meeting this goal and will 
provide any new information concerning the proposed direction of this 
effort at the appropriate time.

    Senator Murphy. Thank you.
    Secretary Pritzker. Thank you.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. And since this is 
my first hearing of this subcommittee, I want to extend to you 
and the Ranking Member congratulations. I look forward to 
working with both of you, and I'm very honored to serve on the 
subcommittee.

                 HERBERT C. HOOVER BUILDING RENOVATION

    Madam Secretary, thank you for having the freshman class 
down to your building, which when you mentioned in your opening 
statement that you wanted to modernize, I think you'll get all 
of us to agree, that's probably a good idea. It was beautiful 
in the library, but as you explained to me, this is as good as 
it gets.
    Secretary Pritzker. Right.

                            BROADBAND ACCESS

    Senator Capito. So anyway, I appreciate that. A recent 
study by the FCC indicated that 56 percent of West Virginia 
residents do not have access to broadband services that meet 
the FCC benchmarks. In rural areas in West Virginia, it's as 
high as 74. It is the worst in the Nation. And I don't claim 
that as a source of pride, either. But I don't need a study to 
understand this. I mean, when I'm seeing constituents driving 
around, there are small businesses and individuals and 
residents who absolutely are hamstrung in terms of being able 
to get broadband in West Virginia.
    Within your department, the National Telecommunications 
Information Administration recently released a study talking 
about the economic benefits of broadband access in terms of 
increased economic output and higher levels of employment. 
Understanding how these funds are spent, I think we find 
ourselves, in our State, in a bit of a quandary, because there 
are many states that have access, and so what they want now is 
faster, broader, bigger capacities when there's still parts of 
the country, and particularly where I live, where we're still 
not even getting a minimal standard.
    And so if you're looking at allocating funds and 
emphasizing where you're going to place your real strength in 
terms of dollars, I think that presents a--not controversy, but 
you have to make decisions. So I guess I would ask you, how are 
you looking to help build out those areas that are underserved 
and still lacking in access? And are there any programs that 
you're developing that will target these areas, particularly 
the rural areas, because that's what's left, the more sparsely 
populated areas, which do not meet the national average for 
access?
    Secretary Pritzker. So Senator, NTIA used to have grant 
money under the BTOP program, which actually exceeded our goals 
and put about 113,000 miles of broadband networks down in the 
United States and connected schools, libraries, I think 25,000 
schools, libraries, health facilities.
    Those funds have been spent. I think they were appropriated 
in 2009 and 2010. And so now what we're doing is, we're talking 
the expertise that we have, and we're working with communities, 
such as the ones that you're talking about in West Virginia, on 
technical assistance. And in fact, I went out to Cedar Falls, 
Iowa with the President to look at what communities can do to 
bring state of the art--they have one gigabyte of broadband----
    Senator Capito. That's what we have.
    Secretary Pritzker. Which is equivalent to the best in the 
world, one gigabyte.
    Senator Capito. Oh, no, we have----
    Secretary Pritzker. No. You've probably got one megabyte or 
something.
    Senator Capito. One megabyte.
    Secretary Pritzker. Right. Exactly.
    Senator Capito. I'm getting my megas and gigas mixed up.
    Secretary Pritzker. I'm right there with you. But 
basically, we're working with communities to how can they come 
up with plans to actually do broadband themselves. And so we're 
using our technical expertise to help them.
    And Cedar Falls was able to borrow the money and pay it 
back in 5 years by virtue of putting in this broadband access. 
And in fact, what they're hoping to do is do more in more parts 
of their State. So I've seen where communities can kind of take 
the reins in the own hands and really improve their access to 
broadband, which we know is so critical for not just economic 
prosperity, but for education and for communication and for 
safety.
    Senator Capito. Well, thank you. And I hope that we can 
work together to try to meet this challenge.
    Secretary Pritzker. Absolutely.
    Senator Capito. Lastly, I would say, your department, 
through NOAA, has quite a substantial infrastructure investment 
in Fairmont, West Virginia, and we're very, very happy about 
that. The I-79 Technology Park, which has your backup data 
system, I would just like to put a plug in for expanding your 
footprint in that area. You already have made quite an 
investment. The park is the location for the backup ground 
stations for your GOES-R Series and your JPSS satellites.
    Secretary Pritzker. Oh, terrific.
    Senator Capito. Yes. And I know it's not complete, but I 
think there will be excess capacity there, we are told, not 
just as your backup data center, but there will also be some 
possibilities for growth. I'd like to work with you to try to 
grow that footprint.
    Secretary Pritzker. We would be delighted to work with you.
    Senator Capito. All right. Thank you so much.
    Secretary Pritzker. Thank you.
    Senator Shelby. Thank you, Senator. We'll go into a second 
round, Madam Secretary.

                               THE CENSUS

    The Department of Commerce has the responsibility, as you 
well know, to administer a constitutionally mandated census 
every 10 years. The 2016 budget request that I mentioned in my 
opening statement includes a significant investment in 
enterprise computer system that will help not only the Bureau's 
annual statistic activities, but will be scalable in order to 
accommodate the activities of the upcoming 2020 Decennial 
Census.
    Having an enterprise system that can serve the data 
collection backbone of the Bureau holds great promise for both 
cost reduction and efficiency. If this new computer enterprise 
were to fail, we could see costly impacts across the Census and 
the Department. We've been there before. This comes at a time 
when Census currently only has, as I understand it, 17 of 34 of 
its own 2020 Census requirements base-lined.
    The question is this, Madam Secretary. What is the 
Department of Commerce doing to ensure that this system, a 
CEDCaP will not become another costly technological setback 
that could potentially endanger all of the other data 
collection activities at the Census? You have a lot of that.
    Secretary Pritzker. Senator, you know, CEDCaP is a very 
important endeavor, because what we need to do is bring 
together I think it's 14 different systems in order to 
streamline the way that we do the Census. So it's a system of 
systems. So why should we have any confidence that we can do 
this?
    First of all, it's something that we are working on the 
development of CEDCaP at this time. We have to test it. I know 
this from my private sector experience, Senator. I ran a 
company that was a complete bits and bytes company, and we did 
a total systems transformation, and I know how perilous those 
can be. This has enormous attention and profile within our 
department. We are very focused on this, not just at the Census 
level, but in the Office of the Secretary and with our Chief 
Information Officer for the entire department.
    But the way one does these types of systems is you have to 
chunk them out, and you have to test them as you go, so that 
you don't have one big moment, whether it either works or 
doesn't work. And that's why it's so important that we get 
funded for fiscal year 2016, so that we can do, I keep harping 
on this, and you'll hear me say this, testing, testing, 
testing. Because we need to know that the opportunity, to not 
just put a system in place but to run the Census at cost of $13 
billion rather than a cost of $18 billion, is one that's 
achievable.
    And as a steward of the taxpayers' dollars, this is 
extremely important to me. But we have to invest in order to 
save that money, because we have to test to know these systems 
will be reliable, because we're held accountable for an 
accurate census, and that's something we take near and dear to 
our hearts as our core responsibility.
    Senator Shelby. I know you bring a lot of private sector 
experience here, but failure can't be an option here. It 
wouldn't be in the private sector. The business would be gone, 
would it not?
    Secretary Pritzker. I hear you, and I have been in this 
situation before in the private sector where failure is not an 
option as you transfer systems in. So therefore, we bring a 
very disciplined approach to this.

                               FISHERIES

    Senator Shelby. Absolutely. Appreciate that. I want to get 
back into fisheries. We've been talking about it from every 
perspective. The Department has the important responsibility of 
managing our Nation's fisheries through the National Marine 
Fisheries Service. Regulatory decisions which are based on 
fishery stock assessment data, getting back to your database, 
can significantly affect commercial and recreational fishermen 
and cause economic harm and disruption when the data is 
erroneous.
    For example, Madam Secretary, last year, a Federal judge 
ruled that the Department mismanaged the red snapper fishery 
industry in the Gulf of Mexico. The result was a nine-day red 
snapper season. Nine days, down from 40 days the year before. 
Well, it's needless to say, the shortened season was very 
disconcerting to me and to thousands of fishermen in the Gulf, 
especially around Alabama, Mississippi, and Florida.
    New technology may facilitate better decisionmaking to 
allow more days at sea for our fishermen. While I'm pleased to 
see the Department taking steps to use new technology, I'm 
concerned that the program is not moving fast enough.
    My questions are these. How is the Department prioritizing 
the use of new technology, such as electronic monitoring and 
reporting, to better understand and manage our Nation's 
fisheries? And the second question is, what is the biggest 
obstacle facing your department, the Department of Commerce, on 
the timely transition to electronic monitoring and reporting 
for fisheries.
    Secretary Pritzker. Thank you for your question. First of 
all, the fact that the red snapper stock is rebuilding is one 
that we're very pleased with, and getting the allocations right 
in terms of who has access to fishing and for how long is 
something that's extremely important to us. I'm not familiar 
with the specific case you talked about, but I will look into 
that. Making sure that we get that right is a high priority.
    As it relates to electronic monitoring of fisheries, we 
have asked for $7 million to continue to find new ways to 
accurately monitor fisheries. In terms of your question as to 
what are our obstacles, one is more work needs to be done to 
know whether this is accurate. You just talked about being 
accurate. What's most important is that we figure out that 
these technologies are actually accurate.
    And we've run some pilots. We've asked for money in the $7 
million to support pilots in different parts of the country to 
make sure that this is something that's accurate, because there 
are real consequences, the finding, as you said, of electronic 
monitoring. And we want to make sure that we can both maintain 
our healthy fisheries for generations to come but also have our 
commercial and recreational fishing industries can be healthy 
and reliable.
    Senator Shelby. Well, I know myself that a lot of people on 
the Gulf are pretty good at all this, have shown me how large 
the snapper have gotten.
    Secretary Pritzker. Huge.
    Senator Shelby. Because they've gotten so big, and there's 
so much of them, we want an accurate count, because this is 
very important to a lot of us on the Gulf.
    Secretary Pritzker. I appreciate that, and I understand the 
challenge.

                         NOAA RESEARCH VESSELS

    Senator Shelby. My last question to you, I hope it'll be my 
last, has to do with the new ocean research vessel. The 2016 
budget request for the National Oceanic and Atmospheric 
Administration includes $147 million for a new ocean going 
research vessel to support the agency's operations. The agency 
needs a new ship, because the fleet is aging, as you pointed 
out.
    Out of 16 large vessels, and I believe you mentioned this, 
only 6 are operating within their design life. Three of the 16 
ships are well past their prime, including the oldest ship in 
the fleet, the Oregon II, which operates out of the Gulf Coast. 
Aging ships not only create operational shortfalls with low sea 
days, they also pose safety concerns for the crew and 
scientists working aboard.
    I'm not sure how many people realize this problem at the 
Department. The 2016 request for this new ship seems like a 
one-time ask and lacks context about the overall need for the 
whole major ongoing ship construction, the whole program.
    My question is this. This subcommittee has asked for, but 
has not received yet, a new fleet recapitalization plan, which 
was last updated in 2008. When will the administration provide 
this plan to the Appropriations Committee?
    Secretary Pritzker. Senator, I commit to you that we will 
put that plan together. I think it's being progress.
    Senator Shelby. And it's important to hear, because----
    Secretary Pritzker. But absolutely, the idea of--we have 8 
of our 16 ships that absolutely need to be replaced over the 
next 12 or 13 years, and so there is a plan in terms of the 
scope of what we need to do. More specifics, I will get to you 
and your staff.
    [The information follows:]

    Question. NOAA Fleet Capitalization Plan.--My question is this. 
This subcommittee has asked for, but has not received yet, a new fleet 
recapitalization plan, which was last updated in 2008. When will the 
administration provide this plan to the Appropriations Committee?
    Answer. NOAA's Fleet Composition Report (2012-2027) is currently 
under Administration review; however, I do not have a specific time 
line in which it will be available. This report, outlining 
recommendations for recapitalization, was coordinated with the overall 
Federal fleet. NOAA convened the NOAA Fleet Advisory Committee, a group 
of external experts from other Federal agencies involved with the 
management of at-sea assets, which was charged with providing advice 
and guidance to help the NOAA team shape strategies for the future of 
the fleet. Specifically, the committee reviewed and provided input on 
each stage of the effort including the overall approach, requirements 
validation process, technology infusion analysis, business process 
improvements, and internal and external communication plans. Committee 
membership included representation from the U.S. Navy, U.S. Coast 
Guard, National Science Foundation, Bureau of Ocean Energy Management, 
Environmental Protection Agency, and University-National Oceanographic 
Laboratory Systems.
    NOAA is requesting $147 million in the fiscal year 2016 budget for 
the construction of a new Ocean Survey Vessel (OSV). This request is 
based on a robust Requirements Validation Assessment and analysis 
process that built upon the 2008 recapitalization plan.
    Per the Federal Oceanographic Fleet Status Report, released May 
2013 by the National Ocean Council, the Federal oceanographic fleet 
will experience a 50 percent decline in the number of active vessels by 
2026 without further modernization. Without an investment, NOAA 
estimates that its fleet will decline by 50 percent from 16 to 8 active 
ships between fiscal year 2016 and fiscal year 2028.

    Senator Shelby. Okay. Will the contract for the ship 
construction be awarded through open competition?
    Secretary Pritzker. It would be awarded, yeah, I believe 
so. Yes. Yeah, absolutely.
    Senator Shelby. Thank you.
    Secretary Pritzker. I don't know any reason why it isn't.
    Senator Shelby. Thank you a lot. Senator Coons.
    Senator Coons. Thank you.
    Senator Mikulski. Excuse me, Senator Coons.
    Senator Coons. Yes, ma'am.
    Senator Mikulski. Madam Secretary, I'm needed at the 
Capitol, because of the Homeland Security.
    Secretary Pritzker. Yes.
    Senator Mikulski. We're going to follow up. Thank you for 
the great job you're doing. And aren't we proud of these new 
members and how engaged they are?
    Secretary Pritzker. Absolutely.
    Senator Shelby. Thank you.
    Secretary Pritzker. Thank you.
    Senator Shelby. Thank you, Senator Mikulski. Senator Coons.

                             MANUFACTURING

    Senator Coons. Thank you, Chairman Shelby and Vice Chair 
Mikulski. As you well know, Madam Secretary, I'm an enthusiast 
for manufacturing.
    Secretary Pritzker. Yes.
    Senator Coons. And look forward to continuing to work with 
you on promoting manufacturing nationally. Last October, I 
participated in Manufacturing Day, touring a variety of 
manufacturing plants up and down my State, and was joined by 
NIST director, Dr. May, and associate director, Dr. Singerman, 
and we had a great time visiting Air Liquide, and PPG, and 
Hirsh Industries. And I'm just grateful that you and your 
department and its leadership have been so engaged in all the 
challenges and issues facing manufacturing.
    One of the things we saw that day was the real challenge in 
the reputation that manufacturing has with young people, 
getting guidance counselors and parents to recognize that 
modern manufacturing is cleaner, more advance, higher paying, 
uses a wider range of skills than the manufacturing of 20 or 30 
years ago.
    So first, I'd love your input on what we're doing together 
and what more we could do to help persuade young people that 
manufacturing jobs are fundamentally different and ensuring 
that they are engaged and attracted to it as an option, and 
that we're investing enough in their skills.
    And related to it, is the MEP, the Manufacturing Extension 
Partnership, I'm pleased your budget request is at $141 
million. I think it's a tremendous and effective program. It's 
had a big impact up and down my State, and they typically 
generate three dollars for every one Federal dollar. There have 
been some challenges in my State in terms of raising the match, 
and I would be interested in your thoughts about whether or not 
the MEP match ratio is too high.
    It has prevented them from working with some smaller 
businesses, some more rural companies that had difficulty 
raising the match. MEP charges fees in order to get the match. 
And in my view, that cost share may actually be defeating the 
broader purpose, which is to deliver timely and efficient and 
effective interventions that promote exporting, promote hiring, 
promote growth for the small and medium manufacturer.
    So if you'd answer those two questions on manufacturing, 
we'll move onto one other topic.
    Secretary Pritzker. Certainly, Senator. In terms of the 
image of manufacturing and what are we doing about both the 
image and skills acquisition, as you know, I've made skills a 
priority for the Department of Commerce. In terms of the image 
of manufacturing, Manufacturing Day is only one day. We had 
50,000 young people go through. I think we doubled the number 
of companies. Over 1,500 companies opened their doors in their 
communities and had kids and their families. And most 
importantly their guidance counselors visiting modern 
manufacturing plants so they could understand what is a career 
today in the 21st century and manufacturing in the United 
States of America.
    I do think it's misunderstood. It's something both the 
Advanced Manufacturing Partnership that the President oversees 
and I'm a part of, as well as the Manufacturing Council that 
reports to me at the Department, are focused on a number of 
initiatives to improve the image of manufacturing.
    In terms of the MEP match, we are in the middle of 
recompeting our MEP relationships around the country. We just 
did ten of them. We changed the match from two to one to one to 
one for exactly the reason you're talking about. The small and 
medium size companies were struggling to be able to take 
advantage of the much needed services that MEP offers to help 
them garner 21st century processes and capabilities that keep 
their companies globally competitive.

          INTERNET CORPORATION FOR ASSIGNED NAMES AND NUMBERS

    Senator Coons. Let me ask about a very different field for 
a moment, if I might, which is ICANN. When I was in the private 
sector, I did some work around web domains and website 
acquisition and control. We had a trademark, the company I was 
in, that had been inappropriately taken over as a web domain by 
a company with no relationship to it. And I got involved in 
this, this was a long time ago, and was struck how, at that 
point, NTIA was playing a critical role in oversight of ICANN, 
excuse me, the Internet Corporation for Assigned Names and 
Numbers, which I think is widely known to the small community 
of people who pay a lot of attention to this.
    And I'm frankly very concerned that there is a proposal to 
transition ICANN completely away from Commerce Department 
oversight and management. And I just want to make sure that 
ICANN is really prepared to make that transition and will have 
adopted some core key principles about protection from 
government capture, budgetary restraint, and a separation of 
functions. And this is something I wrote to you about back in 
December and cosponsored a resolution that passed the Senate, 
calling for these reforms before there is any transition. I 
just wanted to make sure that I had your sense of whether you 
thought these reforms were important to complete before there's 
any movement towards it.
    Secretary Pritzker. Well, Senator, I share your concern. I 
think the transition, the IANA transition, is one that's 
important, because there are downsides for our engagement 
there. Having said that, making sure that ICANN can responsibly 
continue to carry out that function, making sure that it is 
multi-stakeholder managed and driven, making sure it meets the 
needs of customers and in a timely and efficient manner, and 
that we remain a free and open Internet, all of those are 
priorities.
    We are awaiting proposals. We're not in any rush. We're 
working very carefully with ICANN, but we're waiting for 
proposals as to how they can make sure they would satisfy all 
those performance requirements, and also proposals for how they 
will improve the accountability of ICANN, so that there cannot 
be what I call a hostile takeover of the board of ICANN.

                 HERBERT C. HOOVER BUILDING RENOVATION

    Senator Coons. Good. Please. I'm very concerned about that, 
and I'm glad you're moving deliberately. As we're talking about 
performance, just on a side point, part of your budget request 
is $24 million for renovating the somewhat dated Commerce 
central office and headquarters buildings. And I just wondered 
whether you had looked at an Energy Services Performance 
Contract, or an ESPC, as a mechanism for achieving savings in a 
way that is, I think, creatively and appropriately financed.
    I used ESPCs both in county government and in the private 
sector, and I'm joining with Senator Gardner in trying to make 
sure that the Federal Government is able to take advantage of 
this as an opportunity. I see several heads nodding behind you 
vigorously.
    Secretary Pritzker. Yes. Yes, we have.
    Senator Coons. So I'm glad to know that you've taken a hard 
look at that.
    Secretary Pritzker. Senator, one of the things that we're 
doing, I think the theme of our budget is about invest to save. 
When I arrived, as you know, one of my business endeavors prior 
to this was being in the real estate business. We do not 
efficiently use our building as it is. One of the things that 
we are doing is--and we brought in Gensler to help us to look 
at how we use our space, because the modeling plan that was in 
place was one that was really just fix the heating and cooling 
and electrical and put it back the way it was. That makes no 
sense in the 21st century.
    So we actually took part of the space that was, at that 
time, under renovation, and have created a pilot that we're now 
going to replicate throughout the building that's much more of 
what I would call open space contemporary office usage. It's 
far more efficient.
    And the other thing that we're trying to do is do the 
renovation in fewer chunks, because this was going to go out 
over decades, and get it done more quickly. It will allow us to 
give more of our space back and to have it be used for other 
purposes and to use the space more efficiently, but also 
provide an environment that's effective and efficiently, and 
allows us, frankly, to attract talent, which is an issue that 
we've got in an 80-year old building. People walk in, they 
don't want to work there. And so that's a challenge that we've 
got.
    So what we're trying to do is, this is not just about 
fancying up our space. This is about making it more productive 
for the American taxpayer.
    Senator Coons. Thank you. I have two other questions I'll 
just reference briefly, and perhaps my office will submit them 
record. I'm trying to be respectful of the Chairman's time.
    First, as the lowest mean elevation State, Delaware has 
great concerns as to why about a resiliency and planning. We've 
just had evidence that the sea level rise of the last few years 
was unexpectedly significant in the Mid-Atlantic and 
Northeastern states. We face both subsidence, which is the 
natural geologic movement down of the part of the coast that 
we're on, and a rise of sea level. I'm just wondering what 
NOAA's budget might provide for coastal resiliency.
    Last, hubs. The National Network for Manufacturing 
Innovation, as you know, I was bitterly disappointed Delaware 
was not selected for the last competition but remained very 
enthusiastic about it programmatically. I think it is a 
tremendous investment for the American people, a wonderful 
model for promoting and accelerating innovation, and would 
welcome any brief comments you care to make about how that will 
move forward and how that will continue to accelerate 
innovation and manufacturing.
    Secretary Pritzker. Well, as for resiliency, our budget 
calls for expenditures at NOAA to provide resiliency products 
to states and local governments as well as to the private 
sector. There's enormous demand for products to understand what 
is happening with the rise of sea level, with drought, with 
different changes as a result of what's going on both with our 
weather as well as with our climate.
    In terms of NNMI, we have proposed in our budget that we 
will both create the network of the existing and to be planned 
manufacturing institutes which is called for in the Revitalize 
American Manufacturing and Innovation Act (RAMI) legislation 
that was passed at the end of last year. That's a $10 million 
budget item.
    And then we've asked for $70 million each for two different 
institutes that their unique characteristic would be from the 
other institutes--obviously, these remain institutes that bring 
together the private sector as well as all the various 
stakeholders, including universities and the community colleges 
and the supply chain. But these would be technologies chosen or 
proffered by the private sector as opposed to by government as 
the most technologies, would be the ones that we would want to 
focus on.
    Senator Coons. Terrific. Madam Secretary, thank you for 
your service and leadership. Mr. Chairman, thank you for your 
forbearance with my questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you, Senator. If there are no further 
questions, and I don't believe there are this morning, Senators 
may submit additional questions for the subcommittee's official 
hearing record, and we'd request a Department of Commerce 
response to those questions, if there are.
    Secretary Pritzker. Absolutely.
    Senator Shelby. Madam Secretary, thank you for appearing 
today before the subcommittee.
    Secretary Pritzker. Thank you.
    Senator Shelby. We look forward to working with you. And 
we've requested a lot of information, that I'm sure you will 
make sure it's forthcoming.
    Secretary Pritzker. Absolutely.
    Senator Shelby. Thank you.
    Secretary Pritzker. Mr. Chairman, thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Penny Pritzker
            Questions Submitted by Senator Richard C. Shelby
                             cybersecurity
    Question. The Commerce, Justice, and Science (CJS) Subcommittee 
strongly supports and continues to prioritize cybersecurity initiatives 
at the Department of Commerce. However, despite the subcommittee 
providing funds for critical cybersecurity upgrades, the Inspector 
General has found persistent deficiencies that make the Department 
vulnerable to cyber-attacks.
    How would the Department's fiscal year 2016 budget request 
specifically address cybersecurity concerns outlined by the Department 
of Commerce Inspector General's written testimony to this subcommittee?
    Answer. The Department's fiscal year 2016 request supports concerns 
expressed by the Commerce Inspector General by:
  --Replacing outdated equipment and software tools with new software 
        tools and more capable sensors on the Department's networks. 
        These will be connected to the Commerce Computer Incident 
        Response Team (DOC-CIRT) and computer security monitoring 
        teams, resulting in enhanced detection and mitigation of cyber 
        threats and vulnerabilities.
  --Adding watch officers and cyber forensic experts to our DOC-CIRT.
  --Adding skilled cyber contractor support for conducting the supply 
        chain risk analyses mandated by Section 515 of Public Law 113-
        235.
  --Establishing the Department-wide trust identity management 
        solution, which will increase the overall security posture of 
        the Department's data and systems.
    Question. How would the fiscal year 2016 request help expedite and 
sustain Department-wide cybersecurity initiatives, such as the 
Enterprise Cybersecurity Monitoring and Operations (ECMO) and the 
Enterprise Security Oversight Center (ESOC) initiatives?
    Answer. The fiscal year 2016 request would accelerate the 
capability to provide relevant computer data feeds from Commerce 
Headquarters to the Enterprise Security Oversight Center (ESOC). The 
request additionally supports the ability to provide real-time access 
to the Enterprise Cybersecurity Monitoring and Operations (ECMO) data 
which provides the current cyber risk profile and status of Commerce 
information technology assets, both hardware and software.
    Commerce will continue to leverage the Department of Homeland 
Security's Continuous Diagnostics and Monitoring (CDM) program to 
deploy and integrate additional capabilities.
    Question. What cybersecurity deliverables can the Department 
highlight from fiscal year 2014 and fiscal year 2015, that best justify 
the top cybersecurity-related items included in the Department's fiscal 
year 2016 request?
    Answer. In fiscal year 2014, Commerce reached deployment of 85,564 
ECMO client systems and initiated the ESOC project. As of March 2015, 
ECMO client systems deployment has reached 92,202. The ESOC project is 
a joint venture established between the Commerce Office of the Chief 
Information Officer (OCIO) and the National Oceanic and Atmospheric 
Administration (NOAA). The ESOC began functional operations September 
2014 and led the Department's response to the Shellshock vulnerability.
    In Q4 fiscal year 2014, Commerce conducted the first set of supply 
chain risk assessments for acquisitions targeted for installation on 
Commerce owned and operated National Security Systems and Federal 
Information Security Information Management Act (FISMA) High-impact 
systems.
    In Q1 fiscal year 2015, the ESOC achieved initial operating 
capability by establishing basic security operations tools and network 
connectivity from our NOAA-partner site. This capability includes the 
ability to automatically share indicators of compromise across the 
Department and ability to ingest cyber security intelligence feeds into 
the ESOC security event information management system. The ESOC will be 
fully staffed in early Q3 and will begin 24x7 operations by the end of 
Q3 fiscal year 2015, significantly increasing the ability of the 
Department to rapidly detect and identify cyber security threats and 
incidents.
    Effective January 1, 2015, the Department implemented policy 
requiring all operating units to centrally report all cybersecurity 
incidents via the Commerce Computer Incident Response Team. Previously, 
several bureaus independently reported computer incidents to US-CERT. 
This previous policy left the Office of the Secretary unaware of some 
incidents.
    In February 2015, the Department reached 100 percent compliance in 
its implementation of Domain Name System Security Extensions (DNSSEC).
                              noaa vessel
    Question. The Department proposed $147 million for construction of 
a new NOAA vessel in its fiscal year 2016 budget request. While I am 
concerned with the future of NOAA's fleetpotentially losing half 
between now and 2028, this subcommittee finds it difficult to justify 
supporting such a large capital expense without a plan from the 
administration to address the broader issue. In order to provide 
adequate and fiscally responsible funding for NOAA to update its fleet, 
this subcommittee needs the Department to provide context and a 
proposed path forward to ensure critical mission work, such as ocean 
floor mapping and fisheries management, is not put at risk.
    When will the administration be in a position to provide this 
subcommittee and Congress with NOAA's future fleet recapitalization 
requirements, including vessels that are planned to be taken out of 
service and vessels or technology planned for their replacement, 
similar to the information that was provided in the 2008 NOAA Ship 
Recapitalization Plan?
    Answer. The request in the fiscal year 2016 President's budget of 
$147 million for the construction of a new Ocean Survey Vessel (OSV) is 
based on a robust requirement validation and analysis process and 
supports several NOAA missions.
    NOAA also continues to work closely with the NOAA Fleet Advisory 
Committee, a group of external experts from other Federal agencies 
involved with the management of at-sea assets. Committee membership 
includes representation from the U.S. Navy, U.S. Coast Guard, National 
Science Foundation, Bureau of Ocean Energy Management, Environmental 
Protection Agency, and University-National Oceanographic Laboratory 
Systems.
    Per the Federal Oceanographic Fleet Status Report, released May 
2013 by the National Ocean Council, the Federal oceanographic fleet 
will experience a 50 percent decline in the number of active vessels by 
2026 without further modernization. Without an investment, NOAA 
estimates that its fleet will decline by 50 percent from 16 to 8 active 
ships between fiscal year 2016 and fiscal year 2028.
    NOAA is currently analyzing its current and future fleet 
capabilities to ensure that its mission critical priorities are 
addressed in the most cost-effective and efficient manner, and we will 
use this information to guide future fleet investments. This 
challenging but important exercise will help us develop the best path 
forward in support of core work such as ocean floor mapping and fishery 
management, and we will share some of the results of that exercise when 
they become available.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                             arctic policy
    Question. Last year, I began almost all budget hearing with a 
question on the Arctic, and I will be doing so again this year. In 
April, the U.S. assumes the chairmanship of the Arctic Council, and 
beyond the issue of climate change, it is not clear to me what our 
national strategy in the Arctic is. Searching through your budget 
documents, the term ``Arctic'' only appears a handful of times, and is 
mostly in reference to oil spill response and studying the effects of 
``human-induced change on Arctic ecosystems.'' The Commerce 
Department's jurisdiction is so much broader than this, so I hope this 
is not all your department is doing in terms of Arctic policy.
    Please tell me what are the specific Arctic priorities of the 
Department of Commerce?
    Answer. The Administration's 2013 National Strategy for the Arctic 
Region (hereafter, Strategy) (https://www.whitehouse.gov/blog/2013/05/
10/national-strategy-arctic-region-announced) and the priorities 
developed for U.S. Arctic Chairmanship of the Arctic Council are the 
latest statements of U.S. policy in the Arctic, and all actions by 
Department of Commerce agencies fit within the goals and tenets set 
forth in these documents. Within Commerce, NOAA is the primary agency 
that executes the priorities set forth in the strategy. To support the 
strategy and provide NOAA scientists, stakeholders, and partners a 
roadmap to make shared progress, NOAA developed the 2014 Arctic Action 
Plan (http://www.arctic.noaa.gov/NOAAarctic
actionplan2014.pdf ).
    In support of the Strategy and the NOAA Action Plan, NOAA is 
working on:
  --filling gaps in Arctic weather/sea ice observations, forecasts and 
        warnings;
  --improving understanding of climate impacts on biological resources; 
        and
  --improving navigation services.
    Question. In your role as Secretary of Commerce, what are your 
directives to the agency in terms of Arctic policy?
    Answer. The Department of Commerce supports the National Strategy 
and our work in the Arctic region fits within that strategy to better 
position the United States to respond effectively to emerging 
opportunities while simultaneously pursuing efforts to protect and 
conserve this vast, valuable, and vulnerable region. Our work in the 
Arctic Region establishes the foundation for U.S. Arctic development in 
support of
  --advancing our security interests;
  --pursuing responsible Arctic region stewardship, and
  --strengthening international cooperation.
    Question. What, if any, focus does the agency have on better 
understanding the Arctic and growing our Arctic infrastructure?
    Answer. The Department, mainly through NOAA, is actively engaged in 
the Arctic, providing science, service, and stewardship to this rapidly 
changing region, its inhabitants, and the Nation. Through its broad 
range of activities, NOAA is well prepared to make significant 
contributions, to the extent possible within existing resources, to all 
three lines of effort in the national strategy.
    Advancing U.S. security interests in the Arctic requires improved 
maritime domain awareness for which NOAA's weather and sea ice 
forecasts are critically important. NOAA's sea ice research strengthens 
forecasts of both ice and weather conditions and improves understanding 
of the links between sea ice and climate. As a result of this research, 
the complicated linkages among melting sea ice, changing climate, and 
weather patterns in the Arctic and around the globe are becoming more 
apparent, allowing for better planning to cope with and capitalize on 
Arctic change.
    NOAA plays a key role in pursuing responsible Arctic region 
stewardship. Foundational science enables better understanding of 
Arctic ecosystems, the atmosphere, climate, and their dynamic 
interconnections. NOAA's fisheries research and management programs are 
likewise vital, particularly for the economically important U.S. Bering 
Sea fisheries. Research and stewardship of marine ecosystems and 
protected species like marine mammals promote sustainable use, 
conservation, and protection from potential impacts of offshore 
development, increased shipping, and environmental degradation. NOAA 
provides important services to coastal communities by improving safe 
Arctic maritime access with mapping and charting, as well as increasing 
preparedness and communities' resilience to intensifying weather. NOAA 
is also an important partner in hazard response and mitigation (e.g., 
providing scientific support to the U.S. Coast Guard after oil spills). 
Research relevant to oil spills, sea ice, and marine ecosystems will 
help to prepare for and protect against potential environmental 
disasters in the Arctic.
    All of NOAA's Arctic activities are united in one aspect: 
leveraging national and international partnerships and collaborating to 
support common Arctic goals. NOAA works collaboratively through the 
Arctic Council on joint research opportunities, and provision of 
services. NOAA also has many successful Arctic national partnerships, 
within and outside the Federal Government. Existing partnerships will 
be strengthened and new ones developed in the coming years as NOAA 
continues its work to address the Nation's challenges in the Arctic.
    Specifically in terms of infrastructure, NOAA is engaged in the 
following:
  --assessing Arctic maritime infrastructure gaps in conjunction with 
        the U.S. Committee on the Marine Transportation System;
  --the National Telecommunications and Information Administration's 
        Arctic telecomm assessment; and
  --oil spill preparedness and response infrastructure enhancement 
        efforts with the U.S. Coast Guard, the Bureau of Ocean Energy 
        Management, the State of Alaska, and international partners.
                national strategy for the arctic region
    Question. Within the Administration's Implementation Plan for its 
National Strategy for the Arctic Region, the Department of Commerce is 
identified as the lead agency for four programs: Develop Communication 
Infrastructure in the Arctic (National Telecommunications and 
Information Administration); Conserve Arctic ecosystems (NOAA); 
Implement the Pilot Distributed Biological Observatory in the Pacific 
Arctic (NOAA); and Chart the Arctic Region (NOAA). The Department is 
also designated as a support agency for a number of other projects.
    What funding is included in your fiscal year 2016 budget request 
for the programs for which Commerce has the lead, as well as any other 
Arctic-related programs within your purview?
    Answer. NOAA is the lead agency for three objectives in the NSAR 
Implementation Plan: Conserving Arctic Ecosystems, Implement the Pilot 
Distributed Biological Observatory in the Pacific Arctic, and Chart the 
Arctic Region. NOAA is a supporting organization for nearly two dozen 
objectives in the NSAR.
    Work on the associated activities with agency partners is 
progressing within existing resources. In 2016, NOAA estimates $110 
million, including reimbursable funding, to continue to provide and 
develop products and services in support of its Arctic strategic goals 
(this includes funding transferred to NOAA for research needed by 
external partners). The largest share of NOAA Arctic funding is 
directed to supporting Arctic region stewardship, with substantial 
investments also being made to advance U.S. security interests and 
partnerships.
    The fiscal year 2016 request proposes increases for
  --arctic spill preparedness ($1.3 million);
  --implementing a distributed biological observatory to detect climate 
        and human-induced change on Arctic ecosystems ($0.9 million); 
        and
  --supporting northward development of NOAA's Arctic Observing Network 
        ($2.2 million).
                              ringed seals
    Question. First, I would like to thank you for the work you have 
done and the efforts NOAA has made to work with Alaskans and fisherman 
on Stellar Sea Lion restrictions. This is an example of the agency and 
Alaskans working together and I hope we can continue this in the 
future. By the same token, I would like to bring to your attention to 
what is happening right now with the Ringed Seal. It is outrageous for 
NOAA to propose critical habitat for the Ringed Seal that stretches 
350,000 square miles, based on a 100 year weather prediction despite no 
sign of population decline and the Ringed Seal occupying its entire 
historical range. This proposed critical habitat will have very real 
impacts on the economic livelihood and survival of an entire region of 
Alaska, stretching from the border of Canada to the EEZ. The effects 
will span not only great distances, but through our State's fibers, 
from local recreation to subsistence lifestyles.
    Secretary Pritzker, how can you justify such action despite the 
overwhelming lack of evidence supporting it and how much is the Agency 
proposing to spend on this proposal, including implementation of any 
current or future proposed rulemaking?
    Answer. NOAA listed the Arctic subspecies of ringed seals as a 
threatened species under the Endangered Species Act (ESA), effective in 
February 2013. The primary threat to this species is the loss of 
suitable sea ice habitat, including ice with sufficient snow depth for 
the formation of lairs the seals use to give birth and nurse their 
pups. The best available scientific information indicates that the 
effects of habitat loss caused by climate change are likely to develop 
over the next 50 to 100 years.
    The ESA requires that NOAA designate critical habitat for listed 
species. NOAA's proposed rule to designate critical habitat identifies 
three physical and biological features that are essential to the 
conservation of Arctic ringed seals: sea ice suitable for the formation 
and maintenance of the lairs (snow caves) used for sheltering pups 
during whelping and nursing, sea ice suitable as a platform for basking 
and molting, and primary prey resources to support Arctic ringed seals 
(Arctic cod, saffron cod, shrimps, and amphipods).
    Arctic ringed seals have a wide geographic range and a broad patchy 
distribution. The sea ice they depend upon is spatially and temporally 
dynamic, changing throughout the months when sea ice is present. The 
area proposed for designation as critical habitat is large because NOAA 
did not have sufficient information to identify a smaller area, such as 
data on the distribution and relative abundance of ringed seals that 
might indicate habitat areas that contribute the most toward 
reproduction and pup survival. In the proposed rule NOAA solicited 
public comments on the areas to be identified as critical habitat and 
areas that should be considered for potential exclusion. NOAA is also 
having the proposal peer-reviewed by external scientists before we 
proceed with a final rule.
    The process of designating critical habitat for Arctic ringed seals 
will likely cost NOAA about $850,000 over the course of fiscal year 
2013-fiscal year 2016, including costs for staff time, required 
economic analysis, legal review, and public hearings.
    Section 10(e) of the ESA specifically provides for the taking of 
threatened or endangered species by Alaska Natives for subsistence 
purposes, providing such taking is not accomplished in a wasteful 
manner. Based on the numbers of subsistence harvested animals reported 
via the Ice Seal Committee (an Alaska Native co-management organization 
under the Marine Mammal Protection Act), the level of subsistence 
harvesting for Arctic ringed seals is not a concern for the population. 
Therefore, NOAA has not proposed and is not contemplating any 
restrictions on continued subsistence harvests by Alaska Natives.
    Question. Further, the agency has previously claimed that there 
would be no local subsistence impacts, where does this information come 
from and how can it be proven?
    Answer. See response above.
              hydrographic charting & ocean survey vessel
    Question. Modern, accurate geospatial information is critical to 
producing high quality navigation charts, which are to navigation, 
public safety, infrastructure planning, and resource management. This 
is particularly important in Northwest Alaska and the Arctic, where 
increased maritime traffic in the Bering Straits region and in the 
Arctic underscore the need for current hydrographic information. In 
some areas, the ``state-of-the-art'' mapping information still relies 
on lead-line survey work conducted by Russian whalers in the 1800s 
while there are still huge gaps in modern charts in the waters off 
Northwest Alaska and the Bering Straits Region in U.S. Arctic waters. 
This creates unnecessary risks for mariners and local communities. With 
the increasing maritime traffic in the Bering Straits region and in the 
Arctic there is even more need for modern charts. There is an urgent 
need for updated charts, yet NOAA has indicated that it has an 85 year 
backlog for hydrographic surveys in Alaska.
    Secretary Pritzker, your agency plays a critical role in supporting 
hydrographic charting, including in the Arctic and Bering Straits 
Region. Last year we discussed hydrographic charting and what it means 
to my State and economic development in the Arctic. You'll recall that 
I asked you about your commitment to dedicating the necessary resources 
to conduct hydrographic surveys and prepare navigational charts 
adequate to address the increasing maritime traffic in these regions. 
In your answer, you stated that NOAA has developed a 5-year 
hydrographic survey plan to identify about 40,000 square nautical miles 
of critical area and address the most critical survey needs in Alaska. 
You also stated that NOAA planned to resume full Arctic operations in 
2015 under the President's budget request. What steps have been taken 
toward this 5-year plan, what Arctic operations have resumed, and what 
does full operations mean?
    Answer. NOAA continues to implement its 5-year hydrographic survey 
plan, which prioritizes and addresses the most critical survey needs in 
Alaska (and elsewhere). With the requested base resources in fiscal 
year 2016, NOAA plans to survey at least 500 square nautical miles in 
the Arctic, a continuation of the fiscal year 2015 resumption of full 
annual hydrographic survey operations. As a result of mechanical issues 
with the NOAA Ship Fairweather and budget uncertainties associated with 
the Government shutdown in October 2014, NOAA was forced to cancel many 
Arctic surveys planned for 2014. In fiscal year 2015 and beyond, NOAA 
plans to employ one surveying contractor and the NOAA survey vessels 
Rainier and Fairweather. In addition, the U.S. Coast Guard Cutter Healy 
will acquire depth measurements while transiting to evaluate 
requirements for future charting updates.
    Question. This year, you are requesting $147 million for 
construction of an ocean survey vessel. If this vessel is constructed, 
will it be built with the capabilities to operate in the Bering Sea and 
Arctic Ocean, helping to reduce the backlog of needed hydrographic 
surveys? If not, what are the Department's other plans for producing 
modern nautical charts in the Arctic?
    Answer. The requested Ocean Survey Vessel (OSV) will be tasked with 
operating in numerous challenging environments, many of which will be 
near U.S. borders and in the U.S. Exclusive Economic Zone (EEZ). The 
coastal areas are divided into four main regions, including: the 
Northeast, Southeast, Western, and Alaska. Additionally, the OSV will 
perform research in other regions within the design limitations of the 
vessel such as portions of the Arctic, Antarctic, and Pacific Islands, 
as well as within Marine Sanctuaries and Marine Protected Areas. The 
OSV is designed with the ability to map the ocean floor for updating 
nautical charts. In future years, NOAA will continue to acquire 
hydrographic survey data in the Arctic using a combination of NOAA's 
hydrographic survey ships and contractors.
                         electronic monitoring
    Question. At the Headquarters level, year after year it seems as if 
NOAA supports efforts to deliver cost-effective and sustainable 
electronic data collection solutions. The goal here is to validate the 
functionality of cameras, facilitate the collection of data, and 
improve the logistics of deploying electronic monitoring equipment on 
small fishing boats in Alaska. When I met with you last year you 
expressed an understanding of the importance of this issue in Alaska, 
and the potential for it to benefit fisheries around the Nation. 
However, efforts to make progress on the water in Alaska are hampered 
at the Regional level and I am concerned that the staff in the Alaska 
region are not working effectively. Further, despite continued promises 
by Headquarters staff, small boat fisherman are having serious problems 
receiving hardship waivers for lack of bunk space due to the observer 
program.
    Secretary Pritzker, can you commit to working with me to not only 
ensure that NOAA is dedicating the resources necessary to make progress 
toward the deployment of viable electronic monitoring technologies on 
vessels, like we agreed to do last year, but also to bridging the gaps 
between Headquarters and the Regional Offices on goals, plans, and 
actions?
    Answer. The fiscal year 2016 President's budget requests 
approximately $7 million to support further development of cost-
effective, appropriate technologies for monitoring Federal fisheries. 
Of this amount, $5.6 million is requested within the Fisheries and 
Ecosystem Science Programs and Services for development, testing, and 
installation of electronic monitoring and reporting technologies across 
the country. The remaining $1.5 million is requested under the 
Fisheries Management and Programs and Services to expedite the use of 
appropriate electronic technologies.
    This past year, NOAA Fisheries developed a national policy on the 
implementation of electronic monitoring and reporting, with the intent 
to stimulate regional implementation of these systems. To this end, the 
Alaska Regional Office and Science Center have developed an Alaska 
Region Electronic Technologies Implementation Plan for initiatives that 
are currently being undertaken in Alaska. This plan has been endorsed 
by the North Pacific Fishery Management Council (Council) and shows how 
committed NOAA is to advancing electronic monitoring technology in 
Alaska fisheries. Indeed, NOAA is working with the National Fish and 
Wildlife Foundation to provide $4 million in fiscal year 2015 for 
national implementation of electronic monitoring and reporting. A 
significant portion of these funds are expected to go to Alaskan 
fisheries.
    As we move into implementation in Alaskan fisheries, we look to the 
Council's Electronic Monitoring workgroup for advice. This workgroup 
includes industry representatives as well as staff from the Council, 
the Pacific States Marine Fisheries Commission, and both NOAA 
Fisheries' Alaska Regional office and Alaska Fisheries Science Center. 
The workgroup was established so that industry, agency, and electronic 
monitoring service providers have a forum to cooperatively and 
collaboratively design, test, and develop electronic monitoring 
approaches that are consistent with Council goals and objectives to 
integrate electronic monitoring into the observer program.
    The Council's Electronic Monitoring workgroup has developed an 
Electronic Monitoring Cooperative Research and Implementation Program 
that describes analytical and fieldwork projects targeted for 2015 to 
address:
  --Deployment and operation testing of electronic monitoring systems 
        on 12 vessels. Vessels participating in the electronic 
        monitoring cooperative research are relieved of the requirement 
        to carry an observer.
  --Research and development of electronic monitoring technologies.
  --Infrastructure to support electronic monitoring implementation.
  --Analyses to support electronic monitoring implementation decision 
        points.
    This cooperative research in 2015 will collect information that 
will inform 2016 pre-implementation decisions by the Council and the 
Regional Office, assess the efficacy of electronic monitoring for catch 
accounting of retained and discarded catch, identify key decision 
points related to operationalizing and integrating electronic 
monitoring systems, and develop performance standards and operational 
requirements in regulations. Part of the discussion of 2016 pre-
implementation in the small boat longline fleet will focus on vessels 
that have trouble carrying an observer.
    Finally, NOAA is working with the Council to integrate electronic 
monitoring tools into the Observer Program for the fixed gear small-
boat groundfish and halibut fisheries (2015 Annual Deployment Plan for 
Observers). The intent is to develop electronic monitoring to collect 
data to be used in catch estimation for this fleet.
                  marine mammal deterrence guidelines
    Question. Alaskans are fishermen and fishermen must use some means 
of deterrence for marine mammals. On my most recent trip to Juneau, I 
met with the United Fishermen of Alaska who brought up concerns 
regarding NOAA publishing a Notice in the Federal Register of its 
Intent to Issue Guidelines with respect to marine mammal deterrence 
devices and techniques that are used by commercial fisherman. The 
details of what is happening have been hard to find and there has been 
very little information disseminated about reasoning or plans. This is 
concerning for Alaskan fisherman and I echo their concerns.
    On December 16th, this notice was published and the comment period 
just ended on January 15, 2015. What is the current state of these 
guidelines? Where do you see this process leading?
    Answer. The Marine Mammal Protection Act (MMPA) section 101(a)(4) 
provides an exception to the prohibition of take for fishermen to deter 
marine mammals for the purpose of protecting fishing gear and catch, 
provided the deterrent does not result in serious injury or mortality. 
NOAA received over 50 comments in response to our notice requesting 
information from the public on which non-lethal deterrents to evaluate 
and consider for approval pursuant to the Marine Mammal Protection Act. 
Several comments provided specific information on both acoustic and 
non-acoustic devices and techniques to safely deter seals, sea lions, 
whales, and dolphins. NOAA subsequently convened a technical expert 
workshop to review the devices/techniques submitted by the public. 
Nearly all scientific information currently available focuses on the 
effectiveness of the deterrent and not on a deterrent's impact to the 
marine mammal; however, the Marine Mammal Protection Act requires that 
any deterrents used not result in serious injury or mortality of marine 
mammals. Therefore, the experts (e.g., veterinarians, acousticians, 
marine mammal biologists) at the workshop evaluated the potential 
likelihood and severity of impacts to animals that could potentially 
result from a deterrent. NOAA will take the input from the workshop and 
develop guidelines for safely deterring marine mammals as well as 
specific measures for marine mammals under NOAA's jurisdiction, 
including those listed under the Endangered Species Act. These 
guidelines and specific measures will go out for public comment. NOAA 
anticipates publishing a proposed rule in early 2016.
                       fisheries finance program
    Question. The President's fiscal year 2016 budget request includes 
proposed language to authorize $100 million for fiscal year 2016 in 
direct loan authority for NOAA's Fisheries Finance Program (FFP) 
Account as authorized by the Merchant Marine Act. FFP loans have a 
negative subsidy rate and no appropriated funds are required. I have 
supporting the proposed language which I believe will increase 
opportunities for vessel owners to build and refinance new vessels and 
make major modifications to existing vessels to improve fishing vessel 
safety. These loans will help the fleet modernize and provide 
significant economic benefits to shipyards and support industries.
    Last year, you explained that the Advance Notice of Proposed 
Rulemaking was currently being developed to seek industry input and 
that the rulemaking process would be completed by the end of the year. 
Could you please update me on the ANPR and the status of FFP Loans?
    Answer. NMFS published its Advance Notice of Proposed Rulemaking 
(ANPR) on June 13, 2014, and received 10 comments from the public as 
well as an inquiry from the Government of New Zealand. NMFS is 
reviewing the comments consistent with the rulemaking process. NOAA 
Fisheries is still reviewing and considering its response to those 
comments. Although, the Spring 2015 Semiannual Agenda of Regulations 
identifies that the proposed rule will be issued in July 2015, the date 
will have to change pending completion of review of public comments on 
the ANPR.
                          ocean acidification
    Question. Integrated Ocean Acidification has seen increased funding 
from fiscal year 2014 to fiscal year 2016 to the tune of $24 million, 
leaving the fiscal year 2016 budget request at $30 million. This is 
much needed funding to address a very real issue facing our oceans, 
however, it is unclear how and where this money is distributed.
    My question to you, is how much of this increase will go towards 
Alaska and the Arctic?
    Answer. To date, NOAA research and monitoring within Alaskan and 
Arctic waters has fared comparatively well within the merit review 
system established by the Ocean Acidification Program (OAP). In fiscal 
year 2014, 34 percent of the total OAP directed research investments 
were devoted to investigating the effects of ocean acidification on 
Alaska fisheries, notably various king crab species.
    Given the geochemical setting and societal dependence on impacted 
species in the region, Alaska coastal waters have been identified as a 
potential `hot-spot' with respect to ocean acidification. This habitat 
naturally exhibits waters which are seasonally corrosive to shelled 
organisms and is undergoing rapid change in response to climate 
warming. The warming waters cause accelerated melting of glacial ice, 
which can further exacerbate corrosive conditions in the coastal waters 
off Alaska. As a result, the OAP perceives Alaska research and 
monitoring as a high priority to the program.
    Furthermore, an additional $2.5 million provided to the OAP within 
the Consolidated and Further Continuing Appropriations Act, 2015, has 
given the program the ability to increase its Alaska research and 
monitoring investments. OAP has also leveraged NOAA's fleet to: (1) to 
support the scientific work aboard the Gulf of Alaska Ocean 
Acidification cruise, the first of what NOAA hopes to repeat every 4 
years to monitor Alaska ocean acidification; (2) to adopt the long term 
maintenance of two OA moorings originally procured and maintained by 
the State of Alaska; and (3) to continue and enhance a multi-year, 
technology development project at the Alutiq Shellfish Pride Hatchery 
in Seward, Alaska. This last project was initiated in fiscal year 2014 
in collaboration with the Alaska Ocean Observing System (AOOS). For 
additional information on NOAA's OAP see: http://
oceanacidification.noaa.gov/WhatsNew/OANews/
TurningtheHighBeamsonOceanAcidification.aspx).
    Other significant OAP resources, while not exclusively funding 
Alaska research and monitoring, benefit those efforts. For example, in 
fiscal year 2015 the OAP will invest more than $1.1 million in data 
management, quality assurance, and advanced technology projects that 
provide direct capacity across all the OAP supported research and 
monitoring efforts, including those exclusively focused on Alaska 
waters.
    Alaska will also benefit from work that would be funded through the 
proposed increase of $21.4 million for OAP in the fiscal year 2016 
President's budget. Approximately 50 percent--$10 million--of the 
requested increase will close existing gaps within the Ocean 
Acidification monitoring network and fund biological research 
activities. Alaska will be eligible to apply for approximately $5 
million (about 25 percent of OAP funds) that is made available for 
competitive grants to establish a more efficient and effective 
monitoring system as a key element of the National Ocean Acidification 
Network (NOAN).
    Final fiscal year 2016 allocations for OAP directed research 
investments to Alaska and the Arctic will be determined through NOAA's 
competitive (merit) review process and the fiscal year 2016 enacted 
appropriations.
                           steller sea lions
    Question. NMFS is currently considering revisions to the critical 
habitat designation of the Steller Sea Lion under the Endangered 
Species Act. NMFS has indicated there should be a draft proposed rule 
released in August. Alaskans, especially in the fishing industry and 
affected communities, have expressed concern over the lack of 
transparency and peer review in the process. The North Pacific Fishery 
Management Council, in a letter dated October 28, 2014, made several 
recommendations to strengthen the science and improve the public 
process in this review.
    Do you agree with me that we should work to strengthen the 
scientific analyses, and improve the transparency and communication in 
this important review of Steller sea lion critical habitat? What steps 
will you take to address the Council recommendations to have 3rd party 
independent scientific peer review of the analyses, and provide 
enhanced opportunity for the Council and the public to review and 
comment on these analyses prior to the preparation of the proposed 
rule?
    Answer. NOAA Fisheries is pursuing appropriately rigorous 
scientific analyses and open communication to ensure that any revisions 
to Steller sea lion critical habitat are well supported and that 
stakeholders are well informed. For example, NOAA Fisheries is 
providing regular updates to stakeholders, including the North Pacific 
Fishery Management Council. We held two public meetings specifically to 
solicit information that we should consider during our review of 
Steller sea lion critical habitat an extra step that was not required 
by law, but helped to engage stakeholders. We have informed 
stakeholders that a proposed rule to revise critical habitat for 
Steller sea lions should be released by the end of 2015. We also intend 
to complete independent peer reviews of the biological report from the 
Critical Habitat Review Team and the economics report that will support 
our analysis under section 4(b)(2) of the Endangered Species Act. In 
response to a request from the North Pacific Fishery Management 
Council, we will complete those peer reviews before issuing a proposed 
rule, which will allow the public to consider (during the public 
comment period on the proposed rule) what the peer reviewers had to say 
and how NOAA Fisheries responded. We also plan to hold at least one 
public hearing during the comment period on the proposed rule.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. I would like to thank the Department and NOAA for 
supporting the Penobscot River Restoration project (over $20 million). 
I am told that this project has raised more private dollars than any 
other river restoration project in the country. Thanks to a partnership 
effort, we are on the cusp of completing what could be one of the 
largest and most successful fisheries restoration efforts in history.
    Across the Gulf of Maine, the restoration of the sea-run migratory 
fish species is essential to rebuilding a thriving ocean fishery and 
healthy river communities. The Penobscot River Restoration Agreement 
has three main components: the removal of the Great Works Dam, the 
removal of the Veazie Dam, and the construction of a bypass of the 
Howland Dam. The first two are complete; the third is pending. It is 
important that NOAA remain committed to seeing through the full 
implementation of the agreement. If NOAA is not able to commit to the 
Agreement, which includes the building of a fish bypass, the project 
will be incomplete and the fisheries benefits will not be maximized.
    Will you help to ensure that NOAA will work with the State of 
Maine, the communities along the Penobscot River, including the Town of 
Howland, the tribes, and the Penobscot Trust to ensure that the 
Agreement is fully implemented in a timely fashion?
    Answer. Yes, NOAA Fisheries is committed to working with the State 
of Maine, the communities along the Penobscot, and the Penobscot River 
Restoration Trust (Trust) in an effort to implement the agreement in a 
timely fashion. As you pointed out, we have committed substantial 
resources to this effort to date and will continue to work with the 
Trust to fully realize the restoration potential of our collective 
accomplishments. We remain committed to restoring access to important 
diadromous species habitats throughout the watershed, and to that end, 
we are working to improve fish passage at a number of different project 
sites in the basin with several other partners in the State including 
the Atlantic Salmon Federation, The Nature Conservancy and the 
Penobscot Indian Nation. In addition, in May 2014 NOAA announced the 
designation of the Penobscot River Watershed as a Habitat Focus Area 
(HFA) under the agency's Habitat Blueprint Initiative. This designation 
creates an opportunity for the agency to combine its fiscal and 
technical resources to comprehensively address fish passage needs in 
the watershed. Through the Habitat Focus Area designation, we are 
working with The Nature Conservancy and local communities to evaluate 
potential dam removal and fish passage projects in portions of the 
watershed.
    The construction of the Howland bypass is well underway and the 
Trust expects to complete the project by October 2015. It is our 
understanding that the Trust raised adequate funding to complete the 
construction of the bypass which allowed them to go forward with the 
project in late 2014. While NOAA Fisheries did not provide funding for 
this component of the project, our staff participated in engineering 
design review with the Trust and the U.S. Fish and Wildlife Service to 
provide technical advice for fish passage for diadromous species and to 
help ensure satisfactory compliance with Federal regulatory 
requirements.
    We look forward to working further with the Trust to enhance fish 
passage effectiveness and project reliability and to design an 
effective maintenance and monitoring plan. Diadromous fish monitoring 
will document the project's success and determine if improvements are 
needed to the bypass channel to ensure the long-term success of this 
project. As stewards of both the resources in the river and the public 
funding supporting this project, we are concerned about the unresolved 
ownership and long-term maintenance and monitoring plan.
    The fiscal year 2016 President's budget request includes an 
increase of $1.3 million for ESA Salmon, part of which is requested for 
Atlantic salmon. With this increased funding, we would be able to 
better support the Maine Department of Marine Resources field 
operations in each of three salmon recovery areas (including the 
Penobscot) enabling better monitoring of adult abundance and freshwater 
production. Additional funding would also be used to better support 
non-governmental organization (NGO) efforts to restore habitat in the 
Penobscot and other critical habitats of the Gulf of Maine Distinct 
Population Segment and to provide more seasonal staff to support salmon 
and diadromous fish passage operation oversight and studies. The new 
fish passage on the Penobscot River requires more seasonal staff to 
ensure salmon safety and sorting from the anticipated 500,000 to one 
million river herring as their populations respond to the dam removals. 
This increased funding will provide support for that essential 
monitoring.
    NOAA Fisheries anticipates publishing several Federal Funding 
Opportunities (FFO) later this year through our competitive Fisheries 
Habitat Restoration and Species Recovery grant programs. Funding 
provided through these Federal Funding Opportunities could support 
other high priority fish passage projects in the Penobscot watershed. 
The fiscal year 2016 President's budget also includes a request to 
substantially expand the Species Recovery Grant Program by $17 million 
potentially providing even more support for Atlantic salmon recovery.
    Question. Earlier this month, NOAA announced its proposal to expand 
the designated critical habitat for endangered North Atlantic right 
whales in the northwestern Atlantic Ocean. Currently, the area in New 
England is comprised of waters off the coast of Massachusetts, 
including Cape Cody Bay. NOAA's new proposal would greatly expand the 
designated critical habitat to include nearly the entire Gulf of Maine.
    I have heard from concerned fishermen and lobstermen in Maine who 
are still trying to understand the implications that this proposed 
expansion might have on their operations. According to NOAA, this 
proposed expansion does not include any new restrictions for commercial 
fishing operations or shipping lanes. It is my understanding, however, 
that NOAA has imposed more stringent fishing restrictions on the 
existing critical habitat. For example, the lobster fishery in Cape 
Cody Bay has been regulated far longer than any other trap fishery, and 
the agency's recent rules regulating vertical lines included the 
closure of Cape Cody Bay to lobster fishing during the winter.
    Will additional restrictions be imposed on commercial fishing 
operations in the Gulf of Maine should NOAA's proposal be implemented?
    Answer. No. The proposed critical habitat will not result in any 
additional fishing restrictions. The fishing gear restrictions in place 
in the former Cape Cod Bay and Great South Channel critical habitat 
areas were implemented to prevent the take of large whales, including 
the North Atlantic right whale, not to protect the essential features 
of right whale critical habitat. Those measures were implemented under 
the Atlantic Large Whale Take Reduction Plan through the Marine Mammal 
Protection Act to address fishing interactions with large whales in 
those areas during specified times.
    The preamble of the proposed rule to revise critical habitat for 
right whales under the Endangered Species Act states that additional 
fishing gear regulations will not be imposed within the proposed right 
whale critical habitat expansion within the Gulf of Maine or Georges 
Bank areas. The proposed rule and 4(b)(2) Impact Analysis explicitly 
state that we have concluded that current fishing practices, with the 
exception of a possible future fishery targeting copepods, will not 
affect the essential features of foraging habitat and therefore do not 
affect critical habitat.
    Question. For years, China has manipulated its currency to provide 
its companies with an unfair trade advantage a problem that has not 
been sufficiently addressed by the U.S. Government. In Maine, China's 
currency manipulation has devastated communities that rely upon paper 
production. Since 2000, Maine has lost nearly half of its jobs in the 
paper manufacturing industry, and in the past year alone, three Maine 
mills have closed their doors and left hundreds of workers suddenly 
unemployed. Other mills may be subjected to a temporary shut down or 
reduction in operations, leaving workers with their jobs, but without a 
steady paycheck. This uncertainty and upheaval causes lasting damage to 
communities.
    Earlier this month, I joined a bipartisan group of colleagues, led 
by Senator Sessions and Senator Brown, in introducing the Currency 
Undervaluation Investigation Act, which would apply the countervailing 
duty law to currency manipulation practices and hold foreign countries 
accountable for these practices.
    How will you ensure that those harmed by currency manipulation can 
have their concerns addressed by the Department of Commerce?
    Answer. The issue of currency manipulation or undervaluation is a 
very important one; the President has made clear that it is 
inappropriate for any country to try to grow its exports by actively 
maintaining an undervalued exchange rate. While the authority to 
monitor and report on currency manipulation rests with the Department 
of the Treasury, Commerce separately has the authority under the U.S. 
countervailing duty law to investigate an allegation that foreign 
producers may be benefitting from unfair subsidies conveyed through a 
foreign government's currency practices, provided the allegation meets 
the requirements for initiating an investigation under the U.S. 
countervailing duty law. A currency-related countervailable subsidy 
allegation made by a petitioning U.S. industry is examined by Commerce 
based on the initiation requirements of U.S. law. If those requirements 
are met, Commerce would initiate an investigation of the allegation. We 
recognize that various bills with currency provisions pertaining to 
countervailing duty proceedings are currently before the Congress. 
Regardless of the ultimate disposition of the proposed legislation, 
Commerce remains committed to vigorously enforcing the trade remedy 
laws to ensure that U.S. companies and workers have every opportunity 
to compete on a level playing field.
    Question. Last September, NOAA's systems were breached in a cyber 
attack leading to some loss of weather data and delays in satellite 
data transmissions. Representative Frank Wolf said he was told that the 
Chinese may have been behind the attack. Commerce Inspector General 
Todd Zinser's testimony for today expresses serious concerns with 
Commerce's incident detection and response capabilities. This testimony 
follows the IG's previous findings before the cyber attack that founds 
``significant security deficiencies'' in the National Environmental 
Satellite Data and Information Service that pose a ``risk in its 
national critical mission.''
    Can you describe what vulnerabilities led to the breach of NOAA's 
information systems, and have those vulnerabilities been addressed?
    Answer. Last fall, vulnerabilities in three public facing Web sites 
allowed attackers to compromise some NOAA systems. This incident, which 
started in September, was contained quickly and the specific Web 
application vulnerabilities have been fully addressed. A report 
describing these vulnerabilities and the mitigations is under review to 
determine if the report contains classified materials, so NOAA is 
unable to provide additional details in this answer. However, NOAA can 
say that the actual effects of the breach were limited. However, taking 
the affected networks offline to contain the attack did result in 
extensive Web site and data flow outages. In response to the identified 
shortcomings, NOAA has vigorously worked to correct cybersecurity flaws 
and continues to incorporate enhanced security as it modernized 
existing and designs and implements new systems. Nothing can completely 
protect an organization from all malicious cyberattacks, but following 
this course of action will improve the security posture of NOAA's Web 
sites and IT systems and help ensure that NOAA can continue to perform 
its critical missions.
    Question. The trade enforcement role of the Commerce Department and 
other trade agencies is very important for U.S. industries across the 
United States. I would note that the U.S. Trade Representative's Office 
has recently been addressing a concern related to a Moroccan export 
quota on goods that are critical to a manufacturer located in Maine. I 
appreciate the efforts being undertaken to make sure our trading 
partners are living up to their free trade agreement commitments, as 
this will ultimately make the difference in ensuring that trade 
agreements result in benefits to U.S.-based employers and workers.
    How extensively is the Commerce Department coordinating with USTR 
and other agencies to ensure trade agreement compliance?
    Answer. Ensuring that our trading partners live up to their trade 
agreement commitments is critical to the success of U.S. exporters and 
investors, and to the integrity of those agreements. When U.S. 
businesses sell abroad, the Department of Commerce works to ensure that 
they are able to do on a level, competitive playing field. The Commerce 
Department's Trade Agreements Compliance Program systematically 
monitors and investigates foreign compliance with over 250 
international trade agreements.
    Commerce proactively monitors trade agreement compliance and helps 
ensure U.S. business compete on a level playing field by identifying, 
investigating and resolving trade barriers. There is no cost to U.S. 
businesses for this service. Once a barrier is identified, Commerce 
assembles a case team to investigate the problem and develop a strategy 
to address it. This process includes coordinating interagency efforts 
on both an informal basis and formally through the interagency 
Compliance Task Force and the Trade Policy Staff subcommittees chaired 
by USTR. In taking action, Commerce teams can gradually escalate trade 
issues and, as appropriate, bring the full weight of the U.S Government 
to bear in an effort to resolve the issues, using relevant trade 
agreements, multilateral/WTO fora, Free Trade Agreement negotiations 
and other diplomatic means.
    As appropriate, cases identified by Commerce may also be referred 
to USTR and the interagency for formal dispute settlement action 
consideration. Commerce works particularly close with USTR in defending 
the rights of U.S. workers and manufacturers under World Trade 
Organization (WTO) trade remedy rules and challenging foreign 
countries' use of trade remedies when they violate WTO rules and 
present a barrier to fair competition from U.S.-produced goods.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. First, I want to thank you for your hard work and the 
constructive role you played in resolving the crisis we faced during 
the West Coast port slowdown. For Arkansas farmers, businessmen and 
women, this really was a serious crisis where a lot of people were 
harmed by the slowdown.
    When this type of situation occurs again, how could this issue be 
resolved much more quickly so that it does not cause so much economic 
damage to the country?
    Answer. The negotiations over the functioning of the West Coast 
Ports had been taking place for months with the administration urging 
the parties to resolve their differences. Helping resolve this dispute 
was a top priority, and on February 14, 2015, the President directed 
me, Secretary Perez, and Secretary Foxx to travel to California to meet 
with the parties to help them reach a resolution.
    On February 20, 2015, both parties reached a settlement and agreed 
to fully restore all port operations starting the following evening. 
This is great news for the parties involved in the negotiation and a 
huge relief for our economy particularly the countless American 
workers, farmers, and businesses that have been affected by the dispute 
and those facing even greater disruption and costs with further delays.
    President Obama has called on the parties to work together to clear 
out the backlogs and congestion in the West Coast Ports. We remain 
ready to help both sides on the West Coast to work together towards 
this goal. We are also ready to provide similar assistance in future 
seaport contract negotiations on the West Coast and at other U.S. 
seaports.
    Question. I am sure you agree that oversight at the agencies is 
necessary and an important and worthy goal. Therefore, I am concerned 
and disappointed that the OIG is experiencing difficulties accessing 
information needed to investigate and has faced threats not to release 
reports publicly.
    What are you personally doing to ensure this does not continue and 
do you agree that the IG should have access to the information they 
need to conduct appropriate oversight?
    Answer. I take compliance and oversight very seriously, and deeply 
appreciate the critical role Inspector General's Offices play in 
improving management and preventing waste and abuse in the Government. 
I am fully committed to working cooperatively with the Department's 
Inspector General on his oversight work and, as the IG Act requires, 
providing full and open access to information the Inspector General 
needs to do his job. As the Inspector General acknowledged in his 
testimony before this subcommittee, when issues arose regarding the 
Inspector General Office's access to monthly Program Management Council 
meetings for the weather satellite program, I stepped in to ensure that 
the Inspector General had the access that he needed. I will continue to 
take such actions as necessary to ensure that the Inspector General has 
the legally required access to information he needs to conduct his 
oversight work.
    Question. I am concerned with the OIG's cybersecurity findings. 
While the IG identifies actions that the Department has taken to 
strengthen cybersecurity, more needs to be done to protect IT systems 
and information. A recent FISMA audit revealed ``significant security 
deficiencies'' in the NOAA high-impact systems and identified 
weaknesses in the Department's incident detection and response 
capabilities.
    Are you taking these findings seriously and will you follow-up on 
the IG's recommendations?
    Answer. The CIO is taking the OIG findings, plus his own internal 
findings, very seriously. The CIO reports on the Department's cyber 
risk profile, using the NIST cyber framework, on a monthly basis to the 
Secretary and Deputy Secretary, and updates the Department's Executive 
Management Team members on the status of their Bureau on a regular 
basis.
    Our fiscal year 2016 request specifically addresses the 
Department's plan to improve incident response. We have requested an 
additional 2 full-time equivalents (FTEs) and funding to address 
directly the OIG findings and the results of third party assessments. 
We have requested additional information security FTEs to enhance our 
ability to perform security and cyber risk assessments. We are 
currently improving our capabilities through the addition of the ESOC 
capabilities, centralized reporting of computer incidents, and the 
hiring of additional incident response staff to include a digital 
forensics analyst. The primary focus for the Office of Cyber Security 
is shifting from a risk averse policy/compliance mindset to cyber 
operations/risk management mindset.
    Question. Access to broadband is vital to economic development and 
is a real issue for rural States like Arkansas.
    Can you talk about how the fiscal year 2016 budget request supports 
this goal and what concrete steps the agency will take to expand 
Internet access, especially in rural areas?
    Answer. The Department is committed to building on our broadband 
expertise to enable more communities to harness the power of broadband 
for social and economic opportunity. The BroadbandUSA initiative 
outlined in the President's budget will help more American communities, 
including rural areas, expand broadband by leveraging the experience 
and expertise of the Department's National Telecommunications and 
Information Administration (NTIA).
    Through its Broadband Technology Opportunities Program (BTOP), NTIA 
invested more than $4 billion in projects across the country to deploy 
broadband networks, expand public access to broadband, and train 
Americans in the use of computers and the Internet. BTOP projects have 
delivered over 110,000 miles of broadband networks; connected more than 
25,000 schools, libraries, and healthcare facilities to broadband; 
deployed more than 46,000 computer workstations across the Nation; and 
generated more than 650,000 new household broadband subscribers through 
education and training. But these benefits do not meet the tremendous 
demand for increased broadband that we know exists in America today.
    As we close out the few remaining broadband grant projects, we are 
implementing the new BroadbandUSA initiative to help more communities 
in rural and other disadvantaged areas expand broadband opportunities.
    The goal is to share lessons learned and best practices with 
community leaders, businesses, and others working on the front lines to 
close the digital divide. We plan to employ toolkits, training 
programs, workshops and other strategies for communities working to 
expand their broadband capabilities. For example, in February 2015, 
NTIA hosted a workshop in Jackson, Mississippi, that brought together 
leaders from small and large communities with businesses throughout the 
Gulf region to share lessons learned and strategies to help expand 
broadband.
    We also intend to work with other Federal agencies whose programs 
can benefit from broadband expertise, and look for opportunities to 
maximize the impact agencies have on expanding broadband access and 
adoption. The Broadband Opportunity Council recently announced by the 
President will be co-chaired by the Department of Commerce and will 
bring Federal agencies together to help identify steps to reduce 
barriers to broadband deployment.
    As evidence of the progress that we have made, NTIA recently 
announced that the United States has met President Obama's goal of 
ensuring 98 percent of the country has access to wireless broadband at 
a speed of at least 6 megabits per second (Mbps) down/1.5 Mbps up.
    It is also important to note the NTIA's progress towards 
identifying 500 MHz of spectrum for commercial use by 2020 is also 
making a tremendous difference in the wireless broadband availability 
and speeds in rural and other underserved areas of the United States.
    The Department is very committed to helping expand broadband 
opportunities for rural and other underserved areas.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
    Question. As the grants from the BTOP program are spent down, does 
the NTIA have any programs or plans to analyze those areas which are 
still underserved, such as in West Virginia?
    Answer. There are a number of ways in which NTIA is working to 
deliver benefits to underserved areas of the United States.
    Since 2009, NTIA and the FCC have collaborated on the development 
of the National Broadband Map, http://www.broadbandmap.gov/, which 
provides detailed data on broadband availability in the United States. 
The broadband map has become a vital tool for consumers, businesses, 
policy makers and researchers by providing an easy to use and 
searchable way to find out who is offering broadband, what types of 
broadband they are offering and where are they providing it. This tool 
is especially valuable for rural areas that are looking to develop 
strategies to expand broadband in their community. We are in the 
process of transitioning the responsibility for continuing the data 
collection and updates to the Map to the FCC due to budget constraints.
    Through NTIA's State Broadband Initiative, we also funded capacity-
building efforts at the State level. Partly as a result, the State of 
West Virginia recently released a Broadband Strategic Plan (http://
www.wvgs.wvnet.edu/bb/reports.php) identifying goals and targets for 
additional broadband investment that will help fill the gaps in the 
State's broadband infrastructure.
    Additionally, NTIA's Office of Policy Analysis and Development will 
continue to analyze the status of the ``digital divide'' and the use of 
broadband technologies, including deployment and adoption in rural 
areas. This work, begun in 1994, has resulted in a series of detailed 
reports based on data from the Census Bureau's Current Population 
Surveys and American Community Surveys.
    The BroadbandUSA initiative outlined in the President's budget will 
help more American communities expand broadband access and adoption by 
leveraging the experiences and expertise of the NTIA.
    Through its Broadband Technology Opportunities Program (BTOP), NTIA 
invested more than $4 billion in projects across the country to deploy 
broadband networks, expand public access to broadband, and train 
Americans in the use of computer and the Internet. BTOP projects have 
delivered over 110,000 miles of broadband networks; connected more than 
25,000 schools, libraries, and healthcare facilities to broadband; 
deployed more than 46,000 computer workstations across the Nation; and 
generated more than 650,000 new broadband subscribers through education 
and training. But these benefits do not meet the tremendous demand for 
increased broadband that we know exists in America today.
    Question. What initiatives or investments can be made to provide 
service to those areas?
    Answer. As we close out the few remaining broadband grant projects, 
we are implementing the new BroadbandUSA initiative to leverage our 
expertise and help more communities expand broadband opportunities. The 
goal is to share lessons learned and best practices with community 
leaders, businesses, and others on the front lines of working to close 
the digital divide. We plan to employ toolkits, training programs, 
workshops and other strategies to communities working to expand their 
broadband capabilities. We are working with other Federal agencies 
whose programs could benefit from broadband expertise, and look for 
ways to maximize the impact agencies have on expanding broadband access 
and adoption.
    The Department is committed to building on our experience with BTOP 
to enable more communities to harness the power of broadband for social 
and economic opportunity.
    The Broadband Opportunity Council, recently announced by the 
President, will be co-chaired by the Department of Commerce and will 
bring Federal agencies together to help identify steps to reduce 
barriers to broadband deployment and adoption.
    In addition to our work, the U.S. Department of Agriculture's Rural 
Utilities Service continues to invest in broadband infrastructure 
projects, and the Federal Communications Commission is updating the 
Universal Service Fund to better target investments toward broadband 
for rural and other underserved areas.
    Question. Could you please provide an overview of the mission of 
the recently formed BroadbandUSA within your department specifically 
mindful of communities in areas such as rural West Virginia that are 
still lacking in adequate broadband access?
    Answer. As described above, the BroadbandUSA initiative builds upon 
the lessons learned from our successful BTOP and leverages our 
expertise to help more communities expand broadband access and 
adoption. The goal is to share lessons learned and best practices with 
community leaders, businesses, and others on the front lines of working 
to close the digital divide. We also intend to work with other Federal 
agencies whose programs could benefit from broadband expertise, and 
look for ways to maximize the impact agencies have on expanding 
broadband access and adoption.
    NTIA understands that many States such as West Virginia demonstrate 
significant need for additional broadband infrastructure and adoption 
resources. Technical assistance will be directed toward areas of 
greatest need, including rural and tribal areas. As we continue to 
develop and implement this important program, we will focus our efforts 
to improve the broadband capabilities in areas with demonstrated need, 
such as West Virginia.
    Question. How do you gauge success for the BTOP program regarding 
access in rural areas?
    Answer. Whereas the complementary Broadband Initiatives Program 
implemented by the U.S. Department of Agriculture Rural Utilities 
Service was intended to specifically focus on rural areas, Congress 
instructed NTIA to address the unmet broadband needs of ``unserved and 
underserved'' areas through the BTOP program.
    Many of the more than 230 projects funded by NTIA delivered 
broadband infrastructure, computers, and training to rural areas. For 
example, the $126 million infrastructure grant to the State of West 
Virginia deployed new or upgraded broadband capabilities to nearly 
every school in West Virginia, including those in some of the most 
rural areas of the State. The nearly $2 million public computer center 
grant to WorkForce West Virginia improved broadband at 95 workforce 
centers, libraries and Veterans Affairs facilities in rural communities 
such as Buckhannon and Durbin. The $4.4 million broadband adoption 
grant to Future Generations Graduate School provided computer training 
and access through local fire stations and helped more than 30,000 West 
Virginia households become broadband subscribers.
    Question. What lessons have you learned that could help Federal/
State/local governments in expanding access in the future?
    Answer. The Department's NTIA is committed to helping stakeholders 
at the Federal, State, and local level in expanding broadband access 
and adoption. The recently launched BroadbandUSA initiative described 
above will be integral to achieving this goal. By leveraging lessons 
learned from the successful BTOP program and sharing best practices 
among private and public stakeholders, NTIA will assist more 
communities with their goals of expanding broadband opportunities.
    NTIA has already identified a number of lessons learned that can 
assist leaders at the Federal, State, and local level. In January 2015, 
NTIA released a Public Private Partnership primer, which provides a 
basic introduction to a variety of partnership models for communities 
considering new broadband projects. The primer provides a high-level 
overview of steps to establish partnerships, and presents case studies 
of successful public-private broadband partnerships. This document is 
available at: http://www.ntia.doc.gov/report/2015/broadbandusa-
introduction-effective-public-private-partnerships.
    Question. How do you view your continuing role in providing access 
in rural areas?
    Answer. Building on the primer, we are working on a series of 
guides to assist communities that want to increase the level of 
broadband infrastructure and adoption in their areas. These will 
provide solid and field-tested advice on how to plan for network 
development, create useful applications and build projects that will 
sustain themselves for years to come.
    Another way we are helping communities is through our broadband 
adoption toolkit, published in 2013, that serves as a reference manual 
for municipalities and other organizations that want to increase the 
level of adoption in their communities. The toolkit contains clear, 
sensible advice, as well as practical ideas and tips for bringing a 
wide array of individuals online from senior citizens who may never 
have touched a mouse before to minority populations who might not even 
speak English. See http://www.ntia.doc.gov/toolkit.
    Additionally, the recently announced Broadband Opportunity Council, 
established in a March 2015 Presidential Memorandum, will collect 
recommendations from 25 Cabinet agencies about how to promote broadband 
deployment and adoption within the context of existing programs.
    The BroadbandUSA initiative described in greater detail above 
represents the Department's priority effort for expanding broadband 
access and adoption in the United States.
    Question. In those rural areas that expanded broadband under BTOP, 
what was the impact on unemployment, wages, and number of new jobs?
    Answer. BTOP projects have demonstrated a significant positive 
impact on jobs and economic development in the communities they served, 
with benefits that far surpass the taxpayer investments.
    In January, 2015, NTIA released an independent research study 
showing that its broadband grants program resulted in billions of 
dollars in economic benefits to the communities served, including 
increased economic output and higher levels of employment. The 4-year 
study, prepared by the research firm ASR Analytics, examined the social 
and economic impacts of the $4 billion in Recovery Act grants awarded 
by NTIA. In communities where grantees built new broadband 
infrastructure, broadband availability grew by an estimated 2 percent 
more than in communities not served by a broadband grantee. That growth 
could be expected to translate into increased economic output of as 
much as $21 billion annually, the report concluded.
    ASR Analytics' final report summarizes and synthesizes the findings 
of 42 separate case study reports, two interim reports, and a short-
term economic impacts report. Key findings of ASR's final report 
include:
  --On average, in only 2 years, BTOP grant communities experienced an 
        estimated 2 percent greater growth in broadband availability 
        than non-grant communities, which is estimated to generate 
        increased annual economic activity of between $5.17 billion and 
        $21 billion.
  --The additional broadband infrastructure provided by BTOP could be 
        expected to create more than 22,000 long-term jobs and generate 
        more than $1 billion in additional household income each year.
  --Community anchor institutions, like schools and libraries, served 
        by BTOP infrastructure grantees in the sample experienced 
        significantly increased speeds and lower costs. As an example, 
        the median price paid by libraries in the sample was $233 
        megabits-per-second (mbps)/month before BTOP, at a median speed 
        of 3 mbps. As a result of the grant, the median price dropped 
        to $15 mbps/month and median speed increased to 20 mbps.
    For more information, please see: http://www.ntia.doc.gov/press-
release/2015/research-study-shows-ntia-broadband-grants-provided-
billions-economic-benefits.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question. The foreign affairs exception to the Administrative 
Procedure Act is only for those ``affairs'' which so affect relations 
with other governments that the public rule making provisions would 
clearly provoke definitely undesirable international consequences.
    Given that the United States has not had formal diplomatic 
relations with Cuba since 1961, how would providing notice and comments 
provoke definitely undesirable international consequences? The 
precedent this action could have on future issues pertaining to foreign 
policy as particularly concerning. Was it the expectation of Commerce 
that the status quo foreign policy related to Cuba would imminently 
provoke undesirable international consequences? If so, what are the 
consequences?
    Answer. The Administrative Procedure Act's (APA) legislative 
history confirms that rulemakings that ``provoke definitely undesirable 
international consequences'' would clearly fall within the exemption; 
however the legislative history makes it clear that this is merely an 
example of the type of actions that would qualify for the exemption. 
Case law confirms that the phrase ``provoke definitely undesirable 
international consequences'' is only an illustration and is not meant 
to be an exclusive definition of ``foreign affairs function.'' See, 
e.g., New York v. Permanent Mission of India to the United Nations, 618 
F.3d 172, 202 (2d Cir. 2010) (finding that quintessential foreign 
affairs functions such as diplomatic relations and the regulation of 
foreign missions clearly and directly involve a foreign affairs 
function, and declining to turn the phrase ``provoke definitely 
undesirable international consequences'' from an illustration appearing 
in the APA's legislative history into the exclusive definition for 
``foreign affairs function''). Thus, ``undesirable international 
consequences'' is not the only basis for publishing rules involving 
foreign affairs without public notice and comment and Commerce's rule 
promptly implementing the President's change in foreign policy towards 
Cuba did not require public notice and comment.
    Question. What assurances will NTIA provide to Congress that if the 
Internet DNS governance is transitioned to another entity that it will 
not next transition to a nation or entity that is hostile to free 
speech and religion?
    Answer. I appreciate your concern about foreign nations exerting 
control over the Internet domain name system. I assure you that nothing 
about the proposed transition of the role of the National 
Telecommunications and Information Administration (NTIA) in the domain 
name system will increase the likelihood or ability of foreign 
governments to exert greater control. Indeed, a main driver behind the 
IANA transition is to strengthen the multistakeholder process, thereby 
decreasing the likelihood of and opportunity for repressive regimes to 
exercise control over the domain name system at a global level. Moving 
forward to complete the privatization planned in the 1990's is our best 
response to recent calls from around the globe for greater control of 
the Internet by intergovernmental bodies like the United Nations.
    It is important to understand that no single entity including the 
U.S. Government--controls the domain name system or the Internet today. 
The Internet is governed through the bottom-up, consensus-based 
multistakeholder model in which private industry, engineers, civil 
society, and governments work together to develop policies. The 
proposed transition of NTIA's limited role is fully consistent with 
this multistakeholder model and will only strengthen the model against 
capture by anyone, including foreign governments. For this reason, the 
proposed transition has widespread support from Internet stakeholders, 
including AT&T, Verizon, Microsoft, Google, human rights groups, and 
the U.S. Chamber of Commerce.
    Moreover, in addition to a transition plan, Internet stakeholders 
are working on a proposal to enhance ICANN's future accountability. We 
expect the proposal to include the ``stress testing'' of solutions to 
safeguard against future contingencies, such as attempts to influence 
or take over ICANN. As we have stated publicly, the Department will not 
approve a proposal that would allow our role to be replaced by a 
government or intergovernmental organization. We will continue to keep 
Congress apprised of any developments through quarterly reports, which 
NTIA will supplement with additional information as appropriate.
    Question. What steps have been taken to implement the reforms 
required in the 2012 authorization of the Export-Import Bank?
    Answer. The Export-Import Bank of the United States (Ex-Im Bank) 
equips U.S. businesses with the financing tools they need to tackle new 
markets for their goods and services and to expand and create U.S. 
jobs. Last year, Ex-Im supported $27.4 billion of exports and 164,000 
American jobs at no cost to American taxpayers, with nearly 90 percent 
of Ex-Im Bank's transactions directly supporting small businesses. All 
of the reforms required by the bipartisan 2012 Ex-Im Bank 
reauthorization bill have been completed and implemented. Please see on 
the next two pages the section-by-section analysis provided by Ex-Im 
Bank. For further information, I recommend that you contact Ex-Im Bank 
management directly.
 export-import bank reauthorization act of 2012: every reform completed
                      section-by-section analysis
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question. Regarding product promotion overseas, which product 
groups do not have the ability to promote their products on the 
international marketplace?
    Answer. The International Trade Administration (ITA), with its 
country- and industry-specific expertise along with a global network 
across the United States and around the world, plays a unique role in 
addressing barriers to broadening and deepening the U.S. exporter base. 
This includes: (1) Providing market- and industry-specific information 
where it would not otherwise be available at an affordable cost, 
particularly for small and medium-sized businesses; (2) Facilitating 
business opportunities by connecting qualified foreign buyers with U.S. 
suppliers; (3) Strengthening the social networks and institutions which 
underpin private sector activity in trade and investment, especially in 
culturally distant markets; and (4) Helping businesses overcome 
barriers to market access, including through political and diplomatic 
support.
    As part of ITA, Global Markets assists and advocates for U.S. 
businesses in international markets to foster U.S. economic prosperity. 
Utilizing our network of trade promotion and policy professionals 
located in over 70 countries and 100 U.S. locations, Global Markets 
promotes U.S. exports, especially among small and medium-sized 
enterprises; advances and protects U.S. commercial interests overseas; 
and attracts inward investment into the United States.
    Global Markets has a Federal Government presence both across the 
United States and in countries that represent 91 percent of worldwide 
GDP with authoritative, impartial, accessible professionals who have 
specific trade and investment expertise. As trusted intermediaries with 
extensive public and private sector contacts, credibility and influence 
in foreign markets, Global Markets effectively assists U.S. businesses 
and partners in entering and expanding international markets, 
addressing barriers to accessing foreign markets, winning foreign 
government procurements and attracting inward investment.
    Global Markets places a primary emphasis on promoting the exports 
of small and medium-sized enterprises (SMEs). SMEs face internal and 
external barriers that inhibit their ability to access the information 
and contacts needed to fulfill their export potential. Over 80 percent 
of U.S. export value is attributable to less than 10 percent of U.S. 
exporters, which are predominately large companies with exports to more 
than 10 markets. The majority of SME exporters only export to one 
market and do not export in consecutive years. Global Markets is 
focused on helping SMEs overcome the internal and external barriers to 
exporting so that more SMEs export to multiple markets and do so on an 
ongoing basis.
    Finally, Global Markets promotes all product and service groups. 
Regarding which product groups are not able to be promoted in the 
international market place, in accordance with the U.S. and Foreign 
Commercial Service's fiscal year 2011 Fee-Based Services Eligibility 
Policy and the Consolidation Appropriations Act of 2010, USFCS is 
prohibited by law from promoting the export of tobacco or tobacco-
related products and policy restricts export promotion concerning 
munitions or sexually explicit material. Additionally, local laws and 
regulations in all markets can further complicate or even prohibit the 
ability to promote certain product groups in the international market 
place (i.e. alcohol, chemicals or weapons).
    Question. If the State Department is not part of the President's 
new proposed trade department, do you expect that trade policy 
objectives, such as ensuring that our trade partners respect human 
rights and religious freedom, will be assumed by the new department or 
remain part of the State Department?
    Answer. The President is asking Congress to give him the authority 
to submit to Congress for expedited consideration proposals to 
consolidate executive branch agencies so long as the result would be to 
reduce the number of Government agencies or cut costs. If he were 
granted such authority, the President has put forward a proposal that 
would consolidate six primary business and trade agencies, as well as 
other related programs, integrating the Government's core trade and 
competitiveness functions into one new department. Specifically, the 
department would include the Department of Commerce's core business and 
trade functions, the Small Business Administration, the Office of the 
U.S. Trade Representative, the Export-Import Bank, the Overseas Private 
Investment Corporation, and the U.S. Trade and Development Agency. This 
Department would be responsible for expanding trade and investment, 
growing small businesses, and supporting innovation, and would be more 
effectively aligned to strengthen trade enforcement and implement a 
strong, pro-growth trade policy.
    Question. If the State Department, what level of coordination would 
you expect from the new department and State to ensure these concerns 
are addressed?
    Answer. If Congress grants him that authority, we will consult with 
Congress, other agencies and stakeholders and develop a more detailed 
proposal for the creation of the proposed new department. Unless and 
until that authority is granted, we remain focused on our current 
mission.
    Question. Regarding the American Community Survey.--What is the 
total cost per completed survey?
    Answer. In fiscal year 2014, the cost of the American Community 
Survey (ACS) was $230 million. The Census Bureau conducted about 2.4 
million interviews that year, thus yielding a cost of approximately $96 
per completed survey. Each year only a small percentage of households 
are selected to participate in the survey, yet the entire country 
benefits from the wealth of information the ACS provides--over 11 
billion estimates each year. For just $1.72 per household a year, our 
communities and businesses get the data they need to help them plan and 
make decisions to invest and grow our economy.
    Question. Is there a problem with moving to voluntary completion?
    Answer. Yes. Census research, and experience in other countries, 
show that moving to a voluntary survey would make the American 
Community Survey (ACS) more expensive, less accurate, or both. Because 
the ACS would have far fewer completed interviews, the resulting data 
would be much less reliable. To achieve the same level of quality of 
the current mandatory survey, the Census Bureau would have to spend an 
additional $90 million annually to implement a voluntary ACS. Making 
the survey voluntary would disproportionally affect rural areas and 
small populations throughout the Nation. A voluntary ACS at current 
funding levels would result in the loss of data for approximately 61 
million people, representing about 24 percent of counties--mostly rural 
and small communities.
    The Census Bureau's top priority is respecting the time and privacy 
of the people providing the information. We are accelerating our 
program of research to address these concerns, including how best to 
operationalize needed changes. We are focused on specific ways to 
reduce the concerns of survey respondents. For instance: (1) can we 
remove questions by using other data sources, including information 
people have already provided to the government? (2) can we better 
phrase our questions to reduce respondent concern, especially for those 
who may be sensitive to providing information? (3) can we ask some 
questions every other year, or every third year? The Census Bureau 
continues to place a high priority on this work and will report to the 
Secretary of Commerce by the end of the fiscal year (2015).
    Question. In written testimony before this subcommittee, Inspector 
General Zinser testified that ``from fiscal year 2012 through February 
18, 2015, around 38 percent of the contract obligations awarded by the 
Department have been high-risk obligations.''
    What steps are you taking to ensure that the Department properly 
awards, administers, and reports high-risk contracts?
    Answer. In response to recommendations set forth in the published 
Office of Inspector General audit report entitled, The Department's 
Awarding and Administering of Time-and-Materials Contracts Needs 
Improvement, the Department of Commerce has taken significant steps to 
improve the use and management of high-risk contracts to include:
  --Incorporated definitive control objectives specific to high-risk 
        contract actions into Acquisition Management Reviews;
  --Increased the focus of the Acquisition Review Board and Investment 
        Review Board processes to require further details when awarding 
        high-risk contracts, including the use of a standardized list 
        of considerations to evaluate proposed acquisition strategies;
  --Monitoring the use of new contract dollars awarded with high-risk 
        contracting authorities through the Department's Acquisition 
        Council on a monthly basis; and
  --Re-issued departmental policy to the Department's contracting 
        workforce on the proper use, management and documentation 
        requirements of contracts awarded under high-risk contracting 
        authorities.
    With these tools in place, the Department is assured that 
sufficient awareness and oversight is in place to ensure high-risk 
contracts are awarded, administered and reported properly.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
              noaa efforts regarding salmonid populations
    Question. Since the issuance of the 2009 salmon biological opinion, 
operations of California's Central Valley Project (CVP) and State Water 
Project (SWP) are required to adhere to stringent regulations in order 
to protect endangered and listed salmonid species.
    However, nearly 6 years after the actions required by the salmon 
biological opinion has taken effect, the species is still suffering, 
and population recovery is still a distant goal.
    While there are many debates about the effects of the CVP and SWP 
on salmonid species, there is general consensus that water pumping is 
not the only action that affects salmonid populations.
    Based on the best available science today, what factors besides 
water pumping negatively affect the extent and pace of recovery in 
salmonid populations?
    Answer. Habitat loss and degradation are primary limiting factors 
for anadromous salmonid populations. Currently, dams block Chinook 
salmon and steelhead from over 90 percent of their historical spawning 
habitat in the Central Valley. In addition, 98 percent of riparian and 
floodplain habitat in the lower river and Delta is no longer available 
to support healthy fish runs.
    Numerous additional factors (besides water pumping) impair 
recovery, including: blocked access to historical spawning areas; 
drought conditions; disconnected floodplain habitat along tributaries 
and mainstreams; impaired flow and sediment regimes below dams that 
degrade rearing habitats in stream channels and reduce the frequency 
and magnitude of high and turbid flows beneficial to juvenile 
migration; channel revetments and levees that eliminate shallow rearing 
habitat; commercial and recreational fisheries; impaired water quality; 
predation by non-native fish; and unintended effects of hatcheries all 
contribute to declining populations. Many of these factors are related 
to the existence and operation of the water projects, but are not 
directly related to pumping.
    In July 2014, the National Marine Fisheries Service (NMFS) issued a 
recovery plan for Sacramento River winter-run Chinook salmon, Central 
Valley spring-run Chinook salmon, and California Central Valley 
steelhead that identifies and prioritizes the above factors, and other 
threats and stressors to each of the life history stages of the listed 
salmonids.
    Question. Since the issuance of the 2009 salmon biological opinion, 
what steps has NOAA taken to address these other factors and to improve 
salmon recovery efforts?
    Answer. NOAA has taken the steps shown below to improve salmon 
recovery efforts:
  Habitat
    NMFS has been actively pursuing salmonid reintroductions to 
historical habitat in the Sacramento River watershed upstream of Shasta 
Dam, in Battle Creek, in the upper Yuba River watershed, and in the San 
Joaquin River. NMFS has also been engaged in the California Department 
of Water Resources' FloodSAFE initiative in order to integrate 
floodplain and riparian habitat restoration into the State's flood 
protection system and associated conservation strategy.
  Fisheries
    NMFS established a regulatory management strategy for protecting 
winter-run Chinook salmon in the ocean salmon fishery such that the 
fisheries' impacts will be lessened if the population's abundance 
declines below key thresholds.
  Hatcheries
    NMFS' Southwest Fisheries Science Center was directly involved in 
the California Hatchery Scientific Review, and NMFS has been engaged 
with other agencies in implementing the recommendations developed 
during the review.
  Salmon Loss in Colusa Basin
    NMFS has been directly involved in multi-agency efforts to rescue 
salmon and steelhead that were trapped in the Colusa Basin Drain and 
has been working closely with agencies and stakeholder groups to 
minimize impacts.
  Drought
    The five agencies primarily involved in the coordinated operation 
and regulation of the Federal Central Valley Project (CVP) and State 
Water Project (SWP) are planning for a fourth year of drought. Working 
in close coordination, the United States Department of the Interior 
Bureau of Reclamation (Reclamation) and the Fish and Wildlife Service 
(USFWS), the United States Department of Commerce National Oceanic and 
Atomosphieric Administration (NOAA) through the National Marine 
Fisheries Service (NMFS), the California Department of Water Resources 
(DWR), and the California Department of Fish and Wildlife (CDFW) have 
developed an Interagency 2015 Drought Strategy in order to rapidly and 
equitably balance between all of the competing needs for limited water. 
Core principles in the drought strategy include specific protections 
for salmon and steelhead.
  Recovery Partner Collaboration
    NMFS has been working closely with its agency partners and the 
Golden Gate Salmon Association, the Glenn-Colusa Irrigation District, 
the Northern California Water Association, Trout Unlimited, Cal-Trout, 
and American Rivers to develop and pursue salmonid recovery actions. 
This collaboration resulted in on the ground results in 2014 with the 
completion of the Painter's Riffle habitat restoration project on the 
Sacramento River.
    In 2014, NMFS released its Final Recovery Plan for Central Valley 
Chinook Salmon and Steelhead jointly with California Department of Fish 
and Wildlife's Ecosystem Restoration Program Conservation Strategy. 
Parallel with the release and implementation of these plans, Golden 
Gate Salmon Association and Northern California Water Association 
developed salmon restoration initiatives, and multiagency efforts are 
underway to strengthen implementation of the Central Valley Project 
Improvement Act's fish program. NMFS continues to be heavily engaged in 
these stakeholder and agency partner efforts in order to help achieve 
salmon and steelhead recovery goals.
  Budget
    The fiscal year 2016 President's budget request includes an 
increase of $1.3 million for ESA salmon recovery for a total of $68.5 
million. Under this proposal, NOAA will address Atlantic and Pacific 
salmon recovery including expanded Pacific salmon monitoring 
capabilities and increased ESA section 7 consultation capacity on the 
West Coast to improve our on-time consultation completion rate in 
support of the regional economy.
    Specifically, NMFS' work in the Sacramento and San Joaquin 
watersheds occurs in three main program areas:
  Central Valley/State Water project ESA review and permitting
    These activities include immediate action on the drought, work on 
the biological opinion for the Long-term Water Operations for the State 
Water Project and Central Valley Water Project Remand, and development 
and review of the Bay-Delta Conservation Plan.
  ESA administration for the broader suite of actions across the entire 
        Central Valley/San Joaquin geography
    These activities include continued work on large-scale programs 
such as the San Joaquin River Restoration Program and the Central 
Valley Flood Protection Program, development and review of Hatchery 
Genetic Management Plans, and ESA section 7 consultations.
  Monitoring and technical support (for the activities mentioned above)
    This includes NMFS activities to develop salmonid life cycle 
modeling for the Central Valley, as well as any research and monitoring 
needs that may be carried out. Adaptive management is central to 
planned future water project operations, and adaptive management 
requires ongoing research support for development and updating of 
conceptual and quantitative models, design and execution of monitoring 
programs, and management and synthesis of scientific information. This 
will require an ongoing investment in our anadromous fish research 
program as well as infrastructure to conduct monitoring.
    The recent drought emergency has increased short term stress on 
completing our regulatory requirements and highlighted the need for 
more comprehensive management of the system focused on the long term 
protection and recovery of salmonids.
    The budget also includes an increase of $19 million for expanded 
consultation capacity nationwide, including in California.
    Question. Please provide a list and description of the habitat 
restoration projects NOAA has supported or conducted in the Sacramento-
San Joaquin River Delta since the issuance of the 2009 salmon 
biological opinion to help improve endangered/listed salmonid recovery.
    Answer. NMFS is significantly involved in many important 
collaborative restoration projects in the Sacramento-San Joaquin Delta 
in a technical advisory capacity. NMFS works with numerous partners to 
shape these efforts, ensuring that projects are designed to avoid 
jeopardizing ESA-listed salmon and steelhead and to contribute to 
recovery goals and actions consistent with the recent Central Valley 
Recovery Plan.
    Since 2010, NMFS has supported and participated in the Fish 
Restoration Program (FRP). The FRP is an agreement between California 
Department of Fish and Wildlife and California Department of Water 
Resources (CDWR) that was signed following the 2009 salmon biological 
opinion. The primary Fish Restoration Program obligation is to restore 
8,000 acres of intertidal marsh and associated subtidal habitat in the 
Delta and Suisun Marsh. This includes 800 acres of marsh in the low-
salinity-zones of the estuary made up of the Suisun Marsh and the 
westernmost part of the Delta. The Fish Restoration Program also 
includes a number of actions to benefit winter-run and spring-run 
salmon, steelhead, sturgeon and other native fish species. The focus of 
these restoration efforts has been in the Delta, Suisun Marsh and Yolo 
Bypass, as well as connected upstream watersheds. For example, CDWR 
acquired a substantial portion of Prospect Island in 2010 and has been 
leading the restoration of this important intertidal habitat. In 
addition, the State of California contributed $12 million toward the 
restoration of Battle Creek for salmon and steelhead. NMFS is a partner 
of the multi-agency effort (approximately 10 agency and public 
partners) implementing the Battle Creek Restoration Project. For a 
summary of the FRP, including annual reports, see http://
www.water.ca.gov/environmentalservices/frpa.cfm.
    There are a number of other Deltarestoration and planning efforts 
underway in which NMFS is involved to provide technical guidance. These 
include the following major restoration projects:
  --Delta Stewardship Council Delta Plan;
  --California EcoRestore (formerly par of the Bay Delta Conservation 
        Plan BDCP) \1\;
---------------------------------------------------------------------------
    \1\ On April 30, 2015, the Governor of California announced new 
parallel plans for restoring the Sacramento-San Joaquin River Delta 
ecosystem and the modernization of California's aging water 
infrastructure. The Bay Delta Conservation Plan (BDCP) will no longer 
be pursued as a habitat conservation plan. The new approach entails two 
separate, but parallel, State plans:
    1. A habitat plan California EcoRestore aims to restore nearly 
40,000 acres to support the long-term health of the Delta's native fish 
and wildlife species.
    2. An infrastructure plan California Water Fix to achieve and 
sustain these restoration goals, while protecting the state against the 
catastrophic threats of climate change, earthquakes and levee breaks.
---------------------------------------------------------------------------
  --Suisun Marsh Habitat Management, Preservation, and Restoration 
        Plan, and
  --Ecosystem Restoration Program (for 2014 highlights report see 
        https://nrm.dfg.ca.gov/
        FileHandler.ashx?DocumentID=93380&inline.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to reduce/mitigate the effects of non-native 
predator species (such as striped bass) on the recovery of endangered/
listed salmonid species? Please specifically describe the projects 
involved and their status.
    Answer. Predator fish, including striped bass, are one source of 
Chinook salmon mortality, and it is a priority in our Central Valley 
Salmon and Steelhead Recovery Plan to implement projects to reduce 
predation at weirs and diversions in the Delta. Per our 2009 Biological 
Opinion, NMFS is working with the California Department of Water 
Resources (CDWR) to develop and implement predator control methods for 
Clifton Court Forebay on the State Water Project.
    In 2014, NMFS initiated a study in the south Delta to examine 
whether predator removal could be a viable management strategy to 
improve survival of salmonids migrating through this area, and to learn 
about predator identity, activity, abundance, and behavior. Preliminary 
results show that striped bass are a frequent predator of salmonids, 
but many salmon are also consumed by catfish. Removing striped bass 
from small areas can improve survival of salmonids transiting that 
area, but striped bass are very mobile and quickly repopulate areas 
from which they have been removed. Predators were found to be 
concentrated in certain places with particular physical conditions such 
as holes scoured by the current in the bends of armored channels, areas 
with underwater structures that provide cover to predators, and water 
diversions that concentrate salmon (these have been noticeable, 
although we still have more to learn from careful analysis of the data 
collected). Efforts to alter these locations to make then less suitable 
for predators might be more effective than removals. This study will be 
repeated in 2015, with funding from the California Department of Water 
Resources.
    NMFS is also developing a model that should help us understand the 
relationship between inflows to the Delta, pumping, and salmonid 
survival. The model includes an agent-based salmon model that 
incorporates swimming and navigational behaviors and predation, and a 
hydraulic model of the Delta that includes tidal forcing, pumping, and 
operations of barrier gates. The salmon model has been successfully fit 
to tagging data (described briefly in response to the question below). 
The model will be used in 2015 to evaluate the impacts of alternative 
water project operations, and to more generally understand the 
conditions under which and the mechanisms (direct entrainment or 
increased exposure to predation) by which pumping impacts salmon. This 
study is ongoing, with funding from the U.S. Bureau of Reclamation.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to improve monitoring, surveying, and detection of 
salmonid species in the Delta, so that the agency has a clear 
understanding of the presence and distribution of salmon in the Delta? 
Please specifically describe the projects involved and their status.
    Answer. Since 2007, NMFS has been employing acoustic tag technology 
to monitor the migration and survival of salmonids between spawning 
areas and the Pacific Ocean. In 2013, tags became small enough to 
implant in endangered winter-run Chinook, and in 2015, receivers were 
deployed in the river and Delta that transmit their data in real time 
to a Web server, allowing water and fishery managers to know when 
tagged winter Chinook are entering key areas. These studies have 
revealed the importance of flow pulses to the migration and survival of 
winter Chinook and threatened steelhead, and the existence of mortality 
hot-spots within and outside of the Delta. NMFS is also starting a 
pilot project in 2015 to examine the potential of radio-frequency 
identification tags (which are 100x cheaper than acoustic tags) to 
greatly expand the scope of salmonid monitoring studies. This work is 
ongoing, with funding from the U.S. Bureau of Reclamation and the 
California Department of Fish and Wildlife (CDFW).
    In addition, NMFS Southwest Fisheries Science Center (SWFSC) is 
modifying the existing particle tracking model to develop an enhanced 
particle tracking model that assigns advection and ``swimming'' 
behavior to particles as part of their effort to develop a life cycle 
model for winter-run Chinook Salmon. By inserting a number of these 
particles at select Delta locations into a simulation of current and 
forecasted hydrology, the enhanced particle tracking model can provide 
information on predicted route selection and fate of particles to 
inform management of various hydrodynamic effects of operations on 
salmonid movement. Using the enhanced particle tracking model for real-
time operations in 2015 would provide an initial trial of the 
calibrated modeling and analytical efforts and techniques required for 
rapid response. Funding for this effort is provided by the U.S. Bureau 
of Reclamation.
    Kodiak/Midwater trawl monitoring stations were implemented at 
Jersey Point and Prisoners Point in the Delta in 2014-2015 in order to 
establish a baseline understanding of the timing, duration, and 
frequency of anadromous salmonid species at those monitoring locations. 
The trawl monitoring was also utilized before, during, and after a 
storm event, and also in anticipation of and during flexible operations 
that are different than required in the biological opinion, in order to 
inform operations and better understand the influence of storm events 
and operations on the timing, distribution, and magnitude of the 
anadromous salmonid species.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to test and/or implement physical and non-physical 
barriers in the Delta that would better protect salmon from 
entrainment? Please specifically describe the projects involved and 
their status.
    Answer. In 2009 and 2010, the California Department of Water 
Resources (DWR) implemented a bio-acoustical fish fence (combination of 
bubbles, lights, and sound) study at the Head of Old River to determine 
the effectiveness of the technology in separating fish (keeping them in 
the mainstem San Joaquin River) from flow (down Old River to the 
Federal and State pumping facilities). The U.S. Bureau of Reclamation 
issued a report in 2012, but the California Department of Water 
Resources is reanalyzing the data, with another report expected 
sometime this year.
    The California Department of Water Resources implemented a bio-
acoustical fish fence in 2011 and 2012, and a floating fish guidance 
structure in 2014, in Georgiana Slough at the upstream confluence of 
the Sacramento River to determine the effectiveness of the technologies 
in separating fish (keeping them in the mainstem Sacramento River) from 
flow (down Georgiana Slough and into the Central Delta). The California 
Department of Water Resources expects to issue a final report this 
year.
    NMFS staff are part of an interagency team, including California 
Department of Water Resources (lead), Reclamation, USFWS, and 
California Department of Fish and Wildlife, to consider engineering 
solutions to further reduce diversion of emigrating juvenile salmonids 
to the interior and southern Delta, and reduce exposure to California's 
Central Valley Project and State Water Project export facilities 
(pursuant to RPA Action IV.1.3). A final report with recommendations 
from the California Department of Water Resources was shared with NMFS 
on March 26, 2015, and we are working together to determine next steps.
    Question. What steps has NOAA taken since the issuance of the 2009 
biological opinion to reduce or eradicate aquatic invasive weeds in the 
Delta that may negatively affect oxygen and nutrient levels in Delta 
water for endangered/listed salmonid species? Please specifically 
describe the projects involved and their status.
    Answer. The California Department of Boating and Waterways (CDBW) 
and U.S. Department of Agriculture Agricultural Research Service (USDA) 
are the lead agencies in California that execute the water hyacinth 
control program (WHCP), which includes both herbicide and mechanical 
removal of the plant.
    NMFS' role in control of aquatic invasive Delta weeds is to assist 
the USDA and California Department of Boating and Waterways in 
compliance with their Endangered Species Act (ESA) section 7 
consultation requirements, since herbicide treatment and mechanical 
removal activities can be otherwise harmful to the aquatic environment. 
USDA consults with NMFS (and the U.S. Fish and Wildlife Service) to 
ensure Endangered Species Act compliance for water hyacinth control 
program actions.
    On February 27, 2013, NMFS issued a concurrence letter to USDA for 
its proposed water hyacinth control program for 2013-2017. On March 13, 
2013, the U.S. Fish and Wildlife Service issued a biological opinion to 
USDA for the same. Previous consultations requests from USDA have been 
on annual water hyacinth control program operations, however, this 
consultation was on a 5-year permit, giving longer term certainty to 
USDA and California Department of Boating and Waterways that their 
program was in compliance with the Endangered Species Act.
    NMFS also issued a concurrence letter to USDA on February 2, 2014, 
for their Spongeplant Control Program for 2014-2017. NMFS acknowledged 
the inefficiencies in consulting on individual aquatic invasive weeds 
in the Delta, even if it is for several years at a time. Therefore, in 
2014, NMFS initiated an interagency effort to assist USDA and the 
California Department of Boating and Waterways in their development of 
a comprehensive multi-year program to control all aquatic invasive 
weeds in the Delta.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                           noaa--aquaculture
    Question. In many Wisconsin communities along the Great Lakes, we 
are seeing growing entrepreneurial interest in urban aquaculture 
systems. We also have both university- and non-governmental 
organizations providing training and support, encouraging innovation 
and growth in this industry. The NOAA budget proposal recommends a 
stronger focus on the development of aquaculture systems. Along with 
ocean coastal States, I believe Wisconsin has the potential to expand 
its aquaculture production significantly in coming years.
    What is NOAA's position on the future role of Great Lakes 
freshwater aquaculture and urban aquaculture systems in increasing U.S. 
domestic aquaculture production?
    Answer. Currently, the United States imports 90 percent of our 
seafood. This extensive importation has led to a large and growing 
seafood trade deficit that exceeds $12 billion (Fisheries of the United 
States, 2013). Part of NOAA's mission is to develop sustainable marine 
aquaculture across a broad range of systems and technologies, e.g., 
coastal shellfish and finfish farming, offshore aquaculture, stock 
enhancement activities, and land-based systems (aka ``urban 
aquaculture''). NOAA will continue to support urban aquaculture 
development primarily through the National Sea Grant College Program. 
Urban aquaculture has been the subject of research and extension 
projects by several Sea Grant programs, including both within and 
outside the Great Lakes region, and was the subject of a major 
symposium sponsored by Rhode Island Sea Grant in 2002. NOAA anticipates 
that Great Lakes freshwater aquaculture and urban aquaculture will 
continue to play an important role as the U.S. aquaculture industry 
continues to develop.
    (2013). Fisheries of the United States 2013. Silver Spring, MD: 
National Marine Fisheries Service, Office of Science and Technology. 
URL: http://www.st.nmfs.noaa.gov/Assets/commercial/fus/fus13/
FUS2013.pdf.
    Question. Would NOAA's proposed aquaculture funding be available to 
these non-marine systems?
    Answer. Yes. The NOAA Sea Grant National Marine Aquaculture 
competitive program is designed to support the development of 
environmentally and economically sustainable aquaculture within ocean, 
coastal, or Great Lakes settings. The fiscal year 2014 and fiscal year 
2015 Federal Funding Opportunity (FFO) announcements for this important 
Sea Grant program have stated explicitly that the Great Lakes are 
included. Additionally, Great Lakes aquaculture projects are eligible 
to apply for NOAA's National Marine Fisheries Service Saltonstall-
Kennedy grant competition. NOAA intends to continue this policy of 
supporting Great Lakes aquaculture in fiscal year 2016.
              noaa--coastal resilience in the great lakes
    Question. Climate change will significantly impact the Nation in 
coming years, Wisconsin included. With rich natural resources, many of 
Wisconsin's economic sectors and coastal communities will be highly 
impacted by a changing climate. Our Lake Michigan and Lake Superior 
coasts include highly developed and rural areas, forests, and protected 
shorelines. NOAA's fiscal year 2016 budget request emphasizes increased 
support for community, ecosystem, and economic resilience.
    What support will be available to support Great Lakes coastal 
resiliency?
    Answer. In fiscal year 2016, NOAA is requesting a suite of program 
increases to enhance resilience of coastal communities, economies, and 
ecosystems nationwide, including those in the Great Lakes region.
    Regional Coastal Resilience Grants will catalyze regional-scale 
implementation of resilience plans such as hazard mitigation, land use, 
and adaptation (+$45 million for a total of $50 million in fiscal year 
2016).
  --Capacity to Respond to Extreme Events will improve NOAA's 
        capabilities to assess inundation risks, communicate them to 
        at-risk coastal communities, and help those communities take 
        action to mitigate those risks (+$4.8 million).
  --Ecosystem-based Solutions for Coastal Resilience will encourage the 
        use of natural infrastructure for coastal protection by helping 
        communities to compare the economic impacts of ecosystem 
        protection and restoration vs. other uses of coastal lands and 
        waters (+$5 million).
  --AmeriCorps Resilience Corps Pilot Program Training and Technical 
        Assistance will provide training to on-the-ground AmeriCorps 
        members who will work directly with communities to improve 
        their resilience to climate change ($2 million).
    These initiatives will build on NOAA's ongoing efforts to emphasize 
coastal resiliency in the Great Lakes region. This includes NOAA's 
Great Lakes Coastal Resilience Planning Guide. This is an online guide 
for planners and practitioners to share proven solutions, best 
practices, and lessons learned for resilience building, as well as the 
tools, data and maps, and publications to get them there. Coastal 
Resilience Grants will assist with the implementation of the guide 
(http://coast.noaa.gov/digitalcoast/tools/gl-resilience).
                    noaa--high performance computing
    Question. The President's fiscal year 2016 budget requests an 
increase of $9,000,000 to begin recapitalization of the R&D High-
Performance Computing (HPC) systems (i.e., Gaea) located at Oak Ridge 
National Laboratory in Oak Ridge, Tennessee and to establish a 
permanent source of funding that would allow NOAA to maintain regular 
refresh and recapitalization of supercomputing resources.
    What is the status of NOAA's response to Appropriations Committee 
language requiring submission of a long-term plan to upgrade its high 
performance computing technology and architecture?
    Answer. NOAA is currently working on a report regarding our long-
terms plans on high performance computing (HPC) but will not meet the 
June deadline outlined in Senate Report 113-181 that accompanied Public 
Law 113-235 (180 days after enactment). Additional time is needed to 
draft and review the report due to the complexity of this topic. NOAA 
anticipates submitting this report toward the end of August (2015).
    Question. What would be the impact if Congress did not fund the 
$9.0 million requested this year in terms of NOAA's ability to perform 
its primary missions, and the cost and research implications for the 
Agency of deferring the project to another fiscal year?
    Answer. By 2016, NOAA's research and development (R&D) High 
Performance Computing (HPC) system Gaea, located at the Department of 
Energy's Oak Ridge National Laboratory in Tennessee, will be at the end 
of its useful life. Without additional requested funding, NOAA will 
have to fund recapitalization of the Gaea supercomputer within current 
resources, resulting in diminished R&D HPC capacity (approximately 50 
percent of the capacity of today's system) for weather and climate 
modeling and research that operate on Gaea now. Reductions in R&D HPC 
capability will slow down mission critical scientific advancements, 
model development and transition of research applications into 
operational applications. Specific examples of the impacts to NOAA's 
mission include:
    Loss of high-resolution modeling capability for skillful seasonal 
predictions of surface temperature, precipitation: Seasonal predictions 
of temperature and precipitation over land are in particular demand due 
to their importance to the agriculture, energy, transportation and 
marine ecosystems systems sectors for planning and decisionmaking. 
Skillful seasonal prediction of near-surface air temperature and 
precipitation over land has been achieved using a new high-resolution 
model running on the R&D supercomputer. Predictions with this model are 
being made available to global partners through the North American 
Mulit-Model Ensemble for Seasonal Prediction (NNME). NOAA may have to 
downgrade to a lower resolution, less accurate model if it has to fund 
the replacement.
    Seasonal Forecasting of Regional Tropical Cyclone Activity: 
Tropical cyclones (TCs), which include hurricanes and typhoons, are a 
major climate hazard across the Northern Hemisphere, and have exhibited 
variability and change on year-to-year timescales. Understanding and 
predicting TC activity is central to NOAA's mission. A new high-
resolution model running on the R&D supercomputer exhibits substantial 
skill at determining the key features of regional tropical cyclone 
activity. Predictions using this model are being made available to the 
NWS and other global partners through the NNME. Funding for the 
replacement HPC is needed so NOAA can continue the research that would 
lead to these improved capabilities to predict TCs.
            commerce--trade promotion coordinating committee
    Question. A May 2014 GAO report found that there have been limited 
results from the Trade Promotion Coordinating Committee which is 
intended to advance Federal-State collaboration in promoting U.S. 
exports. The Commerce Department responded to the GAO report stating 
its intention to obtain comprehensive data on the overall Federal 
relationship with State trade promotion entities and that once this 
data was obtained, it would work to identify and implement strategies 
to enhance collaboration with State trade promotion entities.
    Can you provide the subcommittee with an update on the status of 
this effort?
    Answer. Partnering with States and regions to foster local 
ecosystems that support exporters of all sizes is one of five key 
priorities of the NEI/NEXT, which I announced in May 2014 and is the 
overarching policy reflected in the National Export Strategy. Since 
then, the Trade Promotion Coordinating Committee (TPCC) member agencies 
have begun working even more closely with State trade offices and 
entities representing them at the national level (State International 
Development Organizations or SIDO) to coordinate calendar year 2015 
Federal-State trade promotion priorities and ensure collaboration in 
serving U.S. businesses. The International Trade Administration, Global 
Markets, U.S. and Foreign Commercial Service (US&FCS) also added to the 
fiscal year 2015 performance plans for its U.S. Field Network Directors 
an element on collaboration and planning with local partners, including 
States.
    The International Trade Administration is actively in the process 
of gathering data to obtain a clearer picture of the Federal-State 
trade promotion relationship and a nationwide view of state resources 
devoted to promoting international trade.
    (1) The TPCC Secretariat is coordinating with the US&FCS U.S. Field 
to gather the Federal perspective on current Federal-State cooperation; 
information on each State's trade promotion programs, e.g. staffing 
levels and State budgets for trade promotion; the extent to which State 
offices provide assistance to companies other than through referrals to 
US&FCS programs and services; challenges to Federal-State coordination; 
and the extent of State activity focused on inward investment 
attraction.
    (2) ITA will analyze its database of reported trade promotion 
events to identify events in which the local US&FCS office mentioned 
they worked with their corresponding State office. ITA also is mining 
its customer satisfaction-related market segmentation and branding 
studies which contain information on use of alternative service 
providers.
    (3) In addition, the TPCC Secretariat is aware that SIDO is 
conducting its own survey to obtain information on the level of trade 
promotion activity within State offices, and SIDO has indicated its 
intent to share that information with the TPCC member agencies. SIDO 
has indicated that its survey will yield information on whether State 
offices have industry focuses; the size of client companies; export 
financing options for risk mitigation; how the State offices use 
Department of Commerce export and inward investment promotion programs, 
such as trade missions, and what programs they use; the frequency of 
meetings with representatives of TPCC agencies; and the most common 
barriers that prevent companies in their State from exporting.
    The TPCC plans to present preliminary findings from the ITA survey 
in April at the annual SIDO meeting, which is a gathering of State 
trade offices. We understand that SIDO also anticipates having results 
from its own survey, which SIDO reports usually has a 50 percent 
response rate, around the same time.
    Following this meeting, the TPCC member agencies will use the 
findings from this data to draft and implement plans to further enhance 
collaboration with State trade promotion efforts. During this process, 
the TPCC Secretariat will continue to work closely with SIDO and the 
various State trade offices to identify opportunities for greater 
Federal-State trade promotion collaboration to maximize efficiencies 
and the impact on export promotion.
                      commerce--patent protections
    Question. American universities, along with related nonprofit 
research institutions, conduct over half of the basic research in the 
United States. Universities are allowed to license the resulting 
patents to the private sector for commercialization. University 
technology transfer provides a rich return on both public and private 
funding for basic research in the form of countless innovative products 
and services that benefit the public, create jobs, and contribute to 
U.S. economic competitiveness and global technological leadership.
    Can you please tell the subcommittee what the Department of 
Commerce is doing to ensure a robust patent system that provides strong 
protection for inventors and supports the continued success of 
university technology transfer?
    Answer. The United States Patent and Trademark Office (USPTO), an 
agency of the Department of Commerce, provides support, outreach and 
collaboration for universities and their technology transfer systems. 
The USPTO provides training at the university level to faculty and 
students alike to enhance the role of innovation and creativity at the 
university level. This outreach provides current and future scientists, 
engineers and business-minded people the skills to understand and 
utilize intellectual property (IP) in our high-tech economy. 
Furthermore, the USPTO collaborates with the university technology 
transfer offices across America to provide training on all aspects of 
IP. The USPTO works with the Federal national laboratories to assist in 
training staff on the aspects of IP and the technology transfer process 
as well. In addition, the USPTO frequently collaborates with the 
National Academy of Inventors and InventNow in reaching out and 
supporting university patent holders and collegiate inventors.
    Some specific examples of USPTO activities include:
  --An enhanced USPTO University Outreach program is underway and is 
        providing training to colleges and universities across the 
        country on the basics of IP and its importance as well as the 
        resources that are available at the USPTO to assist inventors, 
        innovators, entrepreneurs and small business owners.
  --The USPTO is part of the Inter-Agency Group Working on Technology 
        Transfer (IAGWTT) and Inter-Agency Network Enterprise 
        Assistance Providers (INEAP), which is in the process of 
        creating a ``Technology Transfer Playbook'' that outlines the 
        best practices for the technology transfer process.
  --The USPTO provides training for Small Business Innovation Research 
        (SBIR)/Small Business Technology Transfer (STTR) programs. Of 
        particular note is the relationship with the Small Business 
        Administration (SBA) and supporting their efforts to educate 
        grantees through the SBIR Road Tour designed to reach out to 
        colleges and universities.
  --The USPTO has a variety of resources on its USPTO.GOV Web site in 
        the form of videos, tutorials and Web pages that explain the 
        patent process and how to apply for a patent.
  --The USPTO, in a joint effort with partnership with National 
        Institute of Standards and Technology/Manufacturing Extension 
        Partnership (NIST/MEP), created an on-line, Web-based IP 
        Awareness Assessment Tool that allows an individual to answer 
        questions about their knowledge of IP and following the 
        completion of the assessment, the user receives customized 
        training materials.
                         commerce-patent reform
    Question. There have been some proposals in Congress and from the 
While House to reform the U.S. patent system in an attempt to reign in 
patent litigation abuses. However, in a letter from 145 American 
universities, they share their concerns that some of the patent reform 
proposals currently being discussed go well beyond what is needed to 
address the bad actions of a small number of patent holders, and would 
instead make it more difficult and expensive for patent holders to 
defend their rights in good faith.
    Can you please share with us what the Department of Commerce is 
doing to ensure that any reforms do not discourage universities and 
other patent holders from legitimately defending their patents?
    Answer. The Department and particularly its U.S. Patent and 
Trademark Office are actively working within the administration, with 
Congress, and all stakeholders, including the university community, to 
craft fair and balanced legislation to address the adverse effects of 
abusive patent infringement litigation and mass mailed, vague and 
threatening settlement demand letters. As a general matter, we are 
guided by the principle that any final legislation should effectively 
target truly abusive practices while maintaining a patent owner's 
legitimate right to enforce his or her patent. Further, we believe that 
any final legislation should take a balanced and fair approach that 
neither favors nor adversely affects any particular area of technology, 
industry or sector.
                        commerce--reorganization
    Question. The administration's budget includes a proposal to 
reorganize the administrative structure of several agencies and 
includes moving NOAA out of the Department of Commerce to the 
Department of Interior.
    Can you provide this subcommittee your thoughts on this proposal, a 
justification for this proposal and what impact it may have on NOAA?
    Answer. I support the President's request for the reorganization 
authority.
    I recognize that any reorganization of our Department would impact 
our employees' morale and productivity and our operations.
    Until the Congress grants the President this authority, we do not 
anticipate conducting any active planning on this specific proposal and 
remain focused on our current missions.
    The reality is that if the Congress grants this authority, the 
President would consult with various stakeholders before submitting a 
specific proposal to Congress that reflects the best interests of each 
agency involved and the American people.
    Right now, we are focused solely on providing the best possible 
services for the American people.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee stands in recess until 
Thursday, March the 5th, at 10:30 a.m., when we will take 
testimony of the NASA administrator, Charles Bolden.
    [Whereupon, at 12:04 p.m., Thursday, February 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
